<html>
<title> - AFGHANISTAN: TIME FOR A NEW STRATEGY?</title>
<body><pre>[Senate Hearing 110-397]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 110-397

                 AFGHANISTAN: TIME FOR A NEW STRATEGY?

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                             MARCH 8, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2008
42-642 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001





                  COMMITTEE ON FOREIGN RELATIONS      

             JOSEPH R. BIDEN, Jr., Delaware, Chairman      
  CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
  JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
  RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
  BARBARA BOXER, California            BOB CORKER, Tennessee
  BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
  BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
  ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
  BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
  ROBERT P. CASEY, Jr.,                JOHNNY ISAKSON, Georgia
    Pennsylvania                       DAVID VITTER, Louisiana
  JIM WEBB, Virginia
                Antony J. Blinken, Staff Director      
         Kenneth A. Myers, Jr., Republican Staff Director      

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R. Jr., U.S. Senator From Delaware............     1


Boucher, Hon. Richard, Assistant Secretary of State for South and 
  Central Asian Affairs, Department of State, Washington, DC.....     5

      Prepared statement.........................................     7


Dobbins, Hon. James, Director, International Security & Defense 
  Policy Center, Rand Corporation, Arlington, VA.................    48

      Prepared statement.........................................    50


Feingold, Russell D., U.S. Senator From Wisconsin, prepared 
  statement......................................................    38


Jones, Gen James L. Jr., USMC (Ret.), Former Commander, European 
  Command and Supreme Allied Commander Europe, Mclean, VA........    43

      Prepared statement.........................................    46


Lugar, Hon. Richard G., U.S. Senator From Indiana................     3


              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator From Connecticut, 
  prepared statement.............................................    66

                                 (iii)



 
                 AFGHANISTAN: TIME FOR A NEW STRATEGY?

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:23 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Nelson, Obama, Menendez, 
Cardin, Casey, Webb, Lugar, Hagel, Corker, Sununu, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., 
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    The Chairperson is never supposed to admit this, but I 
was--I called this for 9:15. They usually start at 9:30. And 
I'm sitting in my office at 9:15, and my chief of staff says, 
``What are you doing here?'' [Laughter.]
    I apologize, Mr. Secretary, getting you here at 9:15, and 
then starting 5 minutes late. And the train was actually on 
time, Mr. Chairman. I was actually here. Thank you very much, 
Mr. Secretary, for being here.
    Today, we face an issue ``at the very heart of our war on 
terror, the deteriorating--my characterization--deteriorating 
security situation and conditions in Afghanistan. If the 
current trend continues, we may soon find that our hard-won 
successes on the battlefield have melted away.''
    The last part of that statement--and I'll repeat it again--
that ``at the very heart of our war on terror, the 
deteriorating security conditions in Afghanistan--if current 
trends continue, we may soon find that our hard-won successes 
on the battlefield has melted away.'' I didn't write those 
words in preparation for this morning's hearings. I spoke them 
nearly 5 years ago on the floor of the U.S. Senate when two of 
my colleagues here, if I'm not mistaken--I don't want to get 
them in trouble--we all joined together to put more money and 
more troops and more effort into Afghanistan.
    I'm not bringing up old quotes to say ``I told you so,'' 
because there's a lot of things I've said that turned out not 
to be correct, but to make a simple point. The situation in 
Afghanistan is not--is not an unforeseen circumstance. Plenty 
of military and civilian officials have been predicting exactly 
this outcome for years.
    So, what's the state of play? Osama bin Laden remains at 
large, right across the border, in Pakistan, in all 
probability. There are reports that he has reconstituted his 
terrorist training camps, in Pakistan. Given the chance to kill 
him in Tora Bora, the administration instead pulled most of our 
special forces out, our CIA teams, and our Predators, and sent 
them to Iraq. The Taliban is back, keeping much of Afghanistan 
ungovernable. Suicide bombings, IEDs, and other techniques 
imported from Iraq made their way, last year, into Afghanistan. 
I remember, a year ago, we were saying, ``Well, at least this 
isn't occurring in Afghanistan.'' I think everyone on this 
panel said, ``Oh, it's coming. If it's in Iraq, it's coming.'' 
And this has been--the last year has been the bloodiest since 
the ouster of the Taliban.
    The Government in Pakistan turns a blind eye to the Taliban 
cross-border attacks, and to the high command based in Quetta. 
Just last year, the government signed a ``separate peace'' with 
pro-Taliban militants in Waziristan. That is--by ``the 
government,'' I mean not our Government.
    Afghanistan reconstruction is stuck in first gear. 
President Bush promised a Marshall Plan, but he's delivered 
less development aid in the past 5 years than we spent in the 
war in Iraq in the last 3 weeks. Total amount of aid spent in 
Afghanistan in the last 5 years is less than we've spent in 
Iraq in the last 3 weeks.
    Last year, Afghanistan produced 92 percent of the world's 
opium. The proceeds prop up the Taliban, warlords, and corrupt 
officials. There's no serious counternarcotics program. If the 
administration pursues a poorly conceived aerial poppy 
eradication plan, the results could be even worse. We have a 
lot of experience in this, in Latin American.
    Don't get me wrong, we've accomplished some great things. 
Because of our efforts, millions of Afghanistan children are in 
school today. We've built roads and clinics. We got American 
troops in Provincial Reconstruction Teams, showing that the 
U.S. military can be a wonderful friend as well as a fearsome 
enemy.
    President Bush, last month, made two encouraging 
statements. First, he announced the deployment of additional 
combat brigades to Afghanistan. This is obviously very 
important, because our NATO commanders desperately need not 
only several thousand battle-ready troops, but the helicopters, 
transport aircraft, and other military hardware that go with 
them. Second, the President pledged $11.8 billion in new 
funding over the next 2 years. If these figures represent new 
funding, in addition to current budget numbers--and I'm not 
sure of that--and if we focus on projects which bring real 
improvement to the lives of ordinary Afghans, this may be a 
start of a more successful strategy. I certainly hope so. 
Because, in Afghanistan, success is still possible. Or, put 
another way, failure is not thinkable. The question is, How can 
we turn things around?
    Very briefly, in my view we need to do three things. First, 
establish security. We should be surging--if we surge American 
forces anywhere, it should be in Afghanistan, not Iraq. NATO 
troops are necessary, but not sufficient. We also need to train 
the Afghan police and army, which means, for starters, paying 
them decent salaries. I remember when I was in Afghanistan 
right after the Taliban fell, and I was--spent a lot of time 
with Karzai over a 5-day period, as he was just literally 
moving into an office. And I remember the discussion then about 
pay for police officers, pay for civilian personnel.
    Second, we have to get moving on reconstruction. We need 
more funds, and we need to use them better. The Afghans are 
patient, but they're not seeing reconstruction worthy of a 
superpower. As General Eikenberry said, ``Where the road ends, 
the Taliban begins.''
    Third, do counternarcotics right. We should target a--
multimillion-dollar drug kingpins, not the dollar-a-day opium 
farmers. Someday, aerial eradication may have its place, but 
not until we've got an alternative for the livelihoods for the 
people who we--who we're eradicating the poppy, and a judicial 
system capable of taking down the drug barons. Until then, we 
should focus on the top of the food chain, not at the bottom. 
And, unfortunately, as years as chairman of the Judiciary 
Committee, I have an awful lot of experience watching us go 
through this same--how can I say it?--reverse--this same 
infatuation with thinking that, if we just eradicate, for the 
compasias down in Latin America, somehow this is all going to 
go away. You've got to do it at the top.
    We have three witnesses today who can explain these issues 
in detail--with authority, with expertise. The first is Richard 
Boucher, the Assistant Secretary of State for South and Central 
Asia. We all know and respect him, and he's a straight shooter. 
We're happy he's here.
    The two--and then we have to exceptional witnesses, General 
James Jones, recently retired from the U.S. Marine Corps, who--
I probably caused him to retire, because I think he's the 
single most qualified person in the U.S. military--was the 
commander--and I've said that before he retired; I hope I 
didn't hurt you, General--who was the Commander of NATO until 
earlier this year. He supervised the Alliance expansion to 
include responsibility for all of Afghanistan.
    And then, Ambassador James Dobbins, currently at the RAND 
Corporation. He has served as Special Envoy for Afghanistan. In 
the immediate aftermath of 9/11, he served as liaison to the 
Afghan forces fighting alongside our troops, bringing down the 
Taliban. An extremely talented man.
    Gentlemen, welcome, and I will now, before we turn to our 
first witness, turn it over to my colleague Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join your welcome of Secretary Boucher and General Jones and 
Jim Dobbins, who have been very good friends of this committee 
for many years. And I appreciate the extraordinary expertise 
that our witnesses bring to our deliberations on Afghanistan.
    Almost 6 months ago, the Foreign Relations Committee held a 
hearing on Afghanistan that featured General Jones. At that 
time, we observed the Taliban insurgents were challenging NATO 
forces in greater numbers, showing dissent among Afghans, 
cooperating with the narcotics trade, and complicating security 
efforts in ways that inhibit the rule of law and 
reconstruction.
    Many analysts believe that fighting in Afghanistan soon 
will intensify as the Taliban attempt a spring offensive to 
demonstrate their strength. Although the Taliban do not possess 
the capability to defeat NATO and the coalition and Afghan 
forces arrayed against them on the battlefield, the insecurity 
the Afghan people feel because of the Taliban attacks has 
caused some to lose confidence in their government. Others are 
leaning more heavily on tribal leaders and warlords who offer 
security. This undercuts the authority of the Afghan 
Government, increases the risk of civil conflict between tribal 
factions.
    The United States and our alliance partners must be 
prepared to respond to any increase in insurgent violence. 
There should no doubt that Afghanistan is a crucial test for 
NATO. The September 11 attacks were planned in Afghanistan; al-
Qaeda still operates there. And the fate of the country remains 
both strategic and symbolic.
    As in Iraq, the success of our strategy depends not just on 
battlefield victories, but also depends on providing the 
populace with reasons to support the central government and 
coalition forces. Battlefield successes will not bring security 
if economic dislocation and political resentment within 
Afghanistan provide the Taliban with a steady supply of 
recruits to replace their losses.
    We need to underscore that the United States, NATO, and the 
international community are committed to stability and to 
reconstruction in Afghanistan. We must focus efforts now on 
economic development that makes a difference in the lives of 
Afghans and gives young people more employment options.
    We have established an infrastructure to support 
development in Afghanistan, including Provincial Reconstruction 
Teams. But if this infrastructure lacks resources to make 
discernible progress on electricity, water, healthcare, 
agriculture, and other measures, it will be irrelevant to the 
security situation.
    It isn't clear what portion of Taliban insurgents are true 
believers and what portion are so-called ``day fighters''--
local mercenaries who are being paid to fight by the Taliban, 
often with funds generated from the narcotics trade, but, to 
the extent that alternatives to a mercenary livelihood can be 
expanded, the Taliban will find it more difficult to regenerate 
their ranks.
    President Bush has made a significant request, as the 
chairman mentioned, for new funds for Afghanistan in the 2007 
supplemental, including $2 billion for economic reconstruction. 
It's vital that this funding be used to maximum effect, and 
that our allies, similarly, meet their commitments.
    The Afghanistan Compact adopted by the international 
community last year called for a significant increase in 
reconstruction and development efforts. Likewise, when NATO 
assumed command of the International Security Assistance Force 
in Afghanistan, it called for a renewed emphasis on 
reconstruction and development. Our partners in NATO and beyond 
must support these calls with an increase in resources.
    I thank the chairman for holding this hearing. I would 
mention, as a point of personal privilege, that the chairman 
and Senator Hagel, the three of us, visited with President 
Karzai in 2003, when we were at the conference on the Dead Sea 
in Jordan, before we visited Iraq, and saw his plans then, and 
were impressed with his economic ministers and the things that 
they wanted to do. And we still have confidence in them. And 
it's significant that three of us are here this morning to hear 
you and our distinguished witnesses, and to try again.
    I thank the Chair.
    The Chairman. Thank you very much.
    Mr. Secretary welcome. The floor is yours.

STATEMENT OF HON. RICHARD BOUCHER, ASSISTANT SECRETARY OF STATE 
   FOR SOUTH AND CENTRAL ASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Boucher. Thank you, Senator.
    Mr. Chairman, Senator Lugar, Senator Hagel, Senator Nelson, 
it's a pleasure to be here today.
    I have a longer statement that I'd like to have entered 
into the record, and then I'll----
    The Chairman. Without objection, your whole statement will 
be placed in the record.
    Mr. Boucher. Thank you, sir.
    Senator, I'm going to sketch out, briefly, if I can, 
somewhat of a different picture than the one that you--than you 
opened up with, but----
    The Chairman. I expected you might.
    Mr. Boucher. I want to say, from the start, I think you've 
got all the right pieces, all the right factors are there. If 
the situation--if the current trends continued last year's 
trends, we would be in a horrible situation. But I really do 
think that we have set it up--we're in better position this 
year. We have--I'll explain--we have more resources, more 
capability, and we're looking for additional resources.
    The areas that you outlined--security, reconstruction, 
narcotics--I would add governance--extending the Government of 
Afghanistan, extending good government in Afghanistan. Those 
four things, as you noted, need to be done more--more generally 
throughout the country, and better--in better coordination. And 
that's the program that we've laid out for this year.
    This year, we recognize, we have to step up efforts and 
carry out a comprehensive security, political, and economic 
strategy to make the country safe for all, especially for the 
people of Afghanistan.
    In the 5 years since Bonn, we have made impressive 
progress--kids in school, thousands of kilometers of roads, 
extending government--institutions of government--but we 
recognize we have many challenges still to overcome. We have to 
check the Taliban insurgency, ensure that the population sees 
the benefits of good government, and do a better job of getting 
the message out in Afghanistan and abroad.
    The administration has requested an additional $11.8 
billion in assistance for the remainder of 2007 and for fiscal 
year 2008 in Afghanistan. This is a significant increase in 
resources compared to previous years. The funding request 
reflects a strategy of extending government and the benefits of 
government to people throughout the country, especially in the 
south and east. It'll go into training and equipping police and 
military, constructing district roads, increasing electricity 
generation and distribution, extending government, training 
government employees, providing services to citizens, fighting 
narcotics, and bringing about rural development.
    We're all increasingly alarmed by the rapid growth of opium 
poppy cultivation in the country. Poppy production in 
Afghanistan fuels corruption and finances criminal and 
insurgent groups.
    Less than 2 years ago, we launched a multifaceted campaign 
that we're intensifying this year. With the support of Afghan 
authorities, we've created and expanded a strategy of public 
information, rural development, law enforcement, interdiction, 
and eradication.
    Last year, we saw six poppy-free provinces in Afghanistan. 
We have an opportunity this year to double the number of poppy-
free provinces to 12, maybe 14, perhaps more.
    Once again, this year we anticipate intensified attempts by 
the Taliban to disrupt government authority and sway the 
population in their favor. They failed, last year, to take and 
hold cities, towns, and territory. This year, they're more 
likely to--they are likely to turn increasingly to suicide 
bombings, assassination, and intimidation tactics, often 
targeting innocent civilians.
    The United States, the Government of Afghanistan, and our 
allies are approaching the expected spring violence with some 
confidence. NATO, United States, and Afghan forces are more 
capable this year, better positioned, and poised to follow up 
effectively after military operations. We are succeeding in 
extending the writ of government to more districts, reporting 
more Afghan police, Afghan soldiers on the ground, more 
military, more NATO, more capable district officials, more 
reconstruction, more roads, more effective Afghan government 
than ever before in Afghanistan.
    As you noted, Pakistan continues to be a key partner, and, 
I would say, a vital partner, in the fight against Taliban and 
al-Qaeda. It is clear to us that the Taliban are under pressure 
from all sides, including from Pakistan. Recently, Pakistan has 
launched attacks on training facilities and armed infiltrators, 
and has arrested Taliban leadership figures, including, as you 
see in press reports, Mullah Obaidullah Akhund, a former 
Taliban Minister of Defense.
    Pakistani leaders are committed to combating extremism and 
continuing to move the country toward a moderate course. 
Pakistan's success is absolutely key to the success of U.S. 
strategic goals in the region. We have supported Pakistani 
authorities, and will continue to support them.
    At the NATO Summit in Riga, in November, as well as the 
Foreign and Defense Ministerials in January and February, NATO 
allies and partners reaffirmed their commitment to the 
Afghanistan mission. We have continued to press our allies to 
fill the force shortfalls for the NATO requirements. And, since 
last fall, allies have pledged approximately 7,000 new troops 
to the mission; 3,200 of those are American, but the majority 
are contributions from other allies. While some caveats 
restricting operations remain a concern, allies have also 
expressed a willingness to come to each other's aid, should the 
need arise. We're also grateful that non-U.S. donors have 
pledged nearly $1.3 billion over the last 6 months in new 
multiyear assistance.
    We and our allies recognize that success in Afghanistan can 
be achieved, and must be achieved. The people of Afghanistan 
badly want our assistance, and understand all too well the 
consequences of failure.
    At the Department of State, we appreciate the committee 
members' interest and support, and particularly the kind of 
travel that you've made there in the past. Thank you, again, 
for the opportunity to appear and discuss these issues with you 
today, and I look forward to responding to any questions you 
and the members may have.
    [The prepared statement of Mr. Boucher follows:]

 Prepared Statement of Hon. Richard A. Boucher, Assistant Secretary of 
    State for South and Central Asian Affairs, Department of State, 
                             Washington, DC

    Mr. Chairman, thank you for the opportunity to address you and the 
committee today regarding progress in carrying out U.S. policy toward 
Afghanistan.
    I would like to share a few thoughts with you to help frame our 
discussion today. The United States, joined by many international 
partners, toppled the Taliban government after 9/11 because of its 
tolerance of al-Qaida and Osama bin Laden. After years of destruction 
brought about by war, we committed ourselves to rebuilding Afghanistan 
as a democratic nation to ensure that it would never again serve as a 
platform for international terrorism. That job is not finished. Indeed, 
we face a turning point. In the Afghanistan Compact, adopted by the 
Afghan Government and its international partners last January in 
London, we made the necessary political and economic commitments, but 
the security challenge has since increased. This year we must step up 
our efforts and carry out a comprehensive security, political, and 
economic strategy to make Afghanistan safe ground for us all, and 
especially for the people of that long-suffering country.
    In the 5 years since Afghanistan's major factions gathered in Bonn 
to map out a way forward from three decades of war and violence, 
Afghanistan has made impressive progress. During this period, the 
United States has provided over $14.2 billion dollars in security and 
reconstruction assistance to Afghanistan. The political, economic, and 
reconstruction milestones Afghanistan has achieved are extraordinary. 
It has a new Constitution, Presidential and National Assembly elections 
have been held, and the current Parliament is over 20 percent women. 
About 4.7 million refugees from Pakistan and Iran have returned. 
Afghanistan's leaders have adopted sound economic policies, and annual 
GDP growth has averaged nearly 14 percent since 2002. Over 5 million 
boys and girls have returned to school, hundreds of schools and health 
clinics have been built or rehabilitated, and thousands of kilometers 
of roads have been constructed. Multidonor power sector projects are 
underway to build or upgrade Afghanistan's electricity generation, 
transmission, and distribution infrastructure so that Afghans 
themselves can begin to rebuild their struggling economy.
    We are far from having overcome every challenge. We must check the 
Taliban insurgency and continue to assist the Government of Afghanistan 
in extending its authority into ungoverned spaces. We must ensure that 
the population sees the practical benefits of good government and do a 
better job of getting the message out within Afghanistan and abroad. We 
have the strategic opportunity to help build a moderate, Muslim society 
that can support democratic development throughout the region. The 
transformation of Afghanistan from an essentially ungoverned territory 
into a land bridge linking South and Central Asia will bring unimagined 
opportunities to the people of the region and contribute to reducing 
tensions and internal political strife in neighboring countries.
    The integrated strategy we are pursuing meshes security, 
governance, and reconstruction. We have made excellent progress on 
roadbuilding and intend to continue that as well as extend the 
availability of electricity. We are supporting honest and competent 
governors, as well as the training and equipping of new police and 
military forces. We are rebuilding the rural infrastructure, enabling 
agriculture production to take place in vast areas of the country until 
recently out of bounds because of lack of irrigation or the presence of 
land mines. And we are intensifying our efforts to end opium-poppy 
growing.
                             reinstruction
    The administration has recently requested an additional $11.8 
billion in assistance for the remainder of 2007 and for fiscal year 
2008 for Afghanistan, a significant increase in resources for 
Afghanistan compared to prior years. Accelerating reconstruction 
efforts is a critical component of our strategy to stabilize the 
country against the Taliban and other insurgents. The funding request 
reflects a strategy of extending government and the benefits of 
government to people throughout the country, especially in the south 
and east. Specifically, this funding, if approved, will go into 
training and equipping the police and the military; constructing a 
district road system, principally in the volatile south and east; 
increasing the reliability of, and capacity for, electricity generation 
throughout the country; extending government through the south and east 
by building government facilities, training government employees, and 
providing services to citizens; and fighting narcotics and increasing 
rural development. There is both an Afghan and international consensus 
on this approach. We will continue to work with our partners not only 
within Afghanistan but also in foreign capitals to ensure that this 
effort is strengthened, broadened, and coordinated.
    U.S. assistance programs have already achieved measurable results 
and brought widespread improvements to the lives of average Afghans. 
Construction is complete on over 5,825 km of highways and provincial 
roads throughout the country, which has considerably reduced travel 
times and thus transport costs. The impact is lower prices for 
consumers. The value of legitimate agriculture production has increased 
some $1.75 billion between 2002 and 2006. This increase has largely 
gone to farmers. In 2006, the government brought in $440 million in 
total domestic revenue, largely through improved customs collection. 
This funding has helped to pay the salaries of newly hired teachers and 
health workers. A new currency has been established and remains stable; 
further, the United States helped establish a central bank that now 
holds more than $2.5 billion in reserves. A direct result of these 
macroeconomic measures is stability associated with a remarkably low 
3.4 percent inflation rate over the last year, and the trend is further 
downward. In the social sector, according to the Ministry of Public 
Health, 82 percent of people today have access to basic health 
services, up from just 9 percent in early 2002. According to Ministry 
of Education data, 5.8 million students, one-third of them girls, are 
enrolled in school, versus 900,000 under the Taliban.
    We have helped the Government of Afghanistan establish new 
procedures during the past year to promote the effectiveness of 
assistance delivery. The Government of Afghanistan has developed a 
common vision, the Afghan National Development Strategy (ANDS), to 
ensure that all donors, nongovernmental organizations, NATO/ISAF, and 
the government itself are coordinating and measuring the impacts of 
their development programs. The ANDS structure is overseen by, and 
receives policy guidance from, the Joint Monitoring and Coordination 
Board (JCMB), cochaired by the Government of Afghanistan and the U.N. 
Secretary General's Special Representative to Afghanistan, and 
comprised of members of the Afghan Cabinet, Ambassadors of the leading 
donor nations, and the ISAF Commander. I attended the last JCMB meeting 
in Berlin at the end of January, and I believe that this mechanism 
ensures effective coordination in the form of policy formation, 
prioritization of efforts, and implementation and performance 
measurement.
    To help ensure the effective administration of the additional 
assistance resources, USAID's FY 2007 supplemental request contains 
funding necessary for the assignment of 10 additional personnel, 
ranging from procurement officials to roads engineers, to oversee field 
work.
    If Afghanistan is to succeed, it is crucial that its people see 
that they are served fairly and effectively by their democratic 
government that respects human rights as it carries out policies in the 
interests of all Afghans. The international community is working to 
strengthen Afghanistan's institutions of governance through capacity-
building and support for civil service reform, the Parliament, 
Governors, civil society, and provincial bodies, including the elected 
councils. The international community is helping to equip and 
strengthen government at the district level so that there is a capable 
government presence at the subnational level throughout the country. 
Provincial Reconstruction Teams are proving effective in supporting 
local-level Afghan Government officials and tribal elders in areas 
recently cleared of insurgents as well as in more stable parts of the 
country. In addition, these civilian/military teams are implementing 
projects such as roads, wells, and clinics that demonstrate the visible 
advantages and benefits of supporting the central government.
    Through these activities we are helping to improve local governance 
and robbing the insurgency of a prime recruiting tool. Provincial 
Reconstruction Teams staffed by several NATO Allies and partners are 
proving effective in serving as a ``transmission belt'' for policy and 
services linking provincial capitals with Kabul, helping Afghans get 
services from their own government even as the Afghan capacity to 
deliver those services is enhanced.
                            counternarcotics
    The Afghan Government and the international community are 
increasingly alarmed about the rapid growth of opium-poppy cultivation 
in the country. Afghanistan's poppy production fuels corruption, 
narcotics addiction, and is a prime source of financing for criminal 
and insurgent groups. In order to survive and prosper, Afghanistan--as 
other states before it have--must rid itself of the opium poppy. 
President Karzai and his top leaders recognize this.
    However, just as the insurgency cannot be defeated by force of arms 
alone, the scourge of narcotics cannot be defeated purely by 
eradication. The message that poppy cultivation is immoral, illegal, 
and un-Islamic must be reinforced. Small farmers must be provided with 
other means to feed and clothe their families--access to alternative 
crops and other means of livelihood, to roads that will allow them to 
move their crops to market, to advice concerning markets for their new 
crops and to legitimate sources of credit so they can operate free of 
Taliban protection rackets and intimidation. In fact, they need to 
rebuild a rural economy that can render the poppy unnecessary in Afghan 
life. However, as in every country dealing with criminal activity, 
eradication and law enforcement must be credible in order to make the 
risks of growing poppy unacceptable; compared with the benefits of 
licit alternatives.
    It is precisely such a multifaceted approach that we launched less 
than 2 years ago and that we are intensifying now. We must be patient 
even as we strengthen our approach for the long term. Insecurity in 
some provinces--notably Helmand, the largest poppy producer--prevents 
the program I have described to you from being fully implemented today. 
But we have seen encouraging results from our efforts in other 
provinces, some of which are poppy-free and some of which have greatly 
reduced cultivation, and we are persuaded that this strategy is sound. 
With the support of the Afghan authorities, we have expanded our 
strategy of public information, alternative livelihoods, law 
enforcement interdiction, and eradication into additional provinces. 
Failure to address illegal poppy cultivation and trafficking head on 
and in a comprehensive manner is a challenge to the Afghan Government's 
control over its own territory and a victory for the insurgents.
    The United Nations and our own estimates indicate that, despite the 
expansion of poppy-planting, our manual eradication efforts have shown 
good results so far this year. As of March 5, we have confirmed 6,754 
hectares cleared nationwide, including 2,229 hectares in Helmand 
province and 4,525 hectares in the rest of the country. Eradication is 
proceeding ahead of last year's pace, and all evidence points to 
significant reductions in planting in the north. Last year we saw six 
poppy-free provinces, but we have an opportunity this year to double 
the number of poppy-free provinces to 12 and perhaps add as many as 8 
new poppy-free provinces, to total 14.
    The United Nations Office on Drugs and Crime, on March 5, in its 
``Afghanistan Opium Winter Assessment,'' points to increases in the 
south, but indicates that continued strong eradication efforts 
throughout that region--coupled with large cultivation reductions in 
the north--have the potential to hold net national cultivation at last 
year's level. This would be a remarkable achievement, considering the 
obstacles presented by the security situation.
    Whatever happens this year in terms of eradication and net 
cultivation, there is no doubt that we, the Afghans, and our 
international allies need to do more. In just the first 2 months of 
this year, the Border Police in Afghanistan's Herat province, which 
shares borders with both Iran and Turkmenistan, seized more than 3,000 
kilograms of narcotics and arrested 65 drug traffickers. It is good to 
see that law enforcement is improving its capacity to interdict at 
least some of the illicit production, but we know that too much escapes 
through other checkpoints, and narcotics proceeds undercut all of our 
efforts in Afghanistan. As Assistant Secretary of State for 
International Narcotics and Law Enforcement Affairs, Anne Patterson 
noted the other day, we are increasingly concerned that the Taliban 
reap the benefit of narcotics production and trafficking, another 
important reason why we must redouble our efforts to eliminate this 
scourge.
                                security
    We face a ruthless and determined enemy in Afghanistan and, as 
snows melt, the spring fighting is starting up once again. Last summer 
witnessed heavy fighting in the south and east, where U.S. and NATO 
forces performed admirably. We expect the Taliban to challenge the 
Afghan Government and ISAF once again this year. We can anticipate 
intensified attempts by the Taliban to disrupt government authority and 
sway the population to their side. Failing last year to take and hold 
cities, towns, and territory, this year they are likely to turn 
increasingly to suicide bombings, assassinations, and intimidation 
tactics, often targeting innocent civilians.
    The United States, the Government of Afghanistan, and our allies 
are approaching the expected spring violence with confidence. NATO, 
U.S. and Afghan forces are more capable this year, better positioned, 
and poised to follow up quickly and effectively after military 
operations. We have more troops than last year, and we have an agreed, 
comprehensive approach. We have thoroughly reviewed our longer term 
strategy, a review that resulted in our request to you for additional 
funding. We are succeeding in extending the writ of the government to 
more districts. We are putting more Afghan police and Afghan soldiers 
on the ground, more military, more NATO, more district officials, more 
reconstruction, more roads, more effective Afghan Government than ever 
before in Afghanistan. Our aim is to ensure that following the removal 
of Taliban forces from an area, we move rapidly to provide services and 
infrastructure in collaboration with local elders to help them realize 
their highest priorities. This is not top-down planning from the 
capital, but listening and meeting the needs of the people right where 
they are.
    Although Afghan security forces have made tremendous strides, 
Afghanistan is still almost totally dependent on foreign forces for 
security, and faces a threat from a determined enemy, well supplied 
from abroad, that knows how to exploit the weakness of the security 
forces inside the country as well as safe havens inside and outside 
Afghan territory. We are making progress in recruiting and training a 
competent and reliable Afghan National Army (ANA). We have decided to 
provide qualitative improvements to training and equipping of the ANA, 
since the threat on the battlefield is greater than in past years and 
the leadership exists within the ANA now so they can operate and 
maintain better equipment. Our review has concluded that we must now 
work toward increasing the size of the army, due to the changing 
dynamics of the security situation, though we must not compromise the 
quality of the ANA in our efforts to boost the quantity. We are also 
committed to providing combat enablers that will increase the ANA's 
mobility and develop their ability eventually to defend their nation 
independent of coalition forces.
                             law and order
    While police are an important component of the Afghan National 
Security Forces, the police force is underdeveloped and still in 
transition from a system of militias loyal to local commanders and 
warlords, to a professionally led, ethnically balanced, national force. 
In Afghanistan, police play not simply the ``cop on the beat'' role 
familiar to all of us; they are also a key component to defeating the 
insurgency. Once military operations have rid an area of the Taliban, 
it is the police, trained, equipped, and loyal to the national 
government, who must take over and give local people the security they 
need to build their lives. We have a sound program in place for 
developing the Afghan police, and we know that the capacity of the 
police must be expanded, but this will take time.
    Through better training and leadership, improved pay and electronic 
distribution of salaries, and provision of better equipment, we are 
working to ensure that the police are ready and motivated to do their 
jobs. We strongly support efforts by President Karzai and his 
government to rein in corruption and prosecute dishonest officials. The 
international community is supporting reform of the justice system, 
training for judges, and humane conditions for detainees and prisoners.
    Police salaries are paid for through the Law and Order Trust Fund 
(LOTFA). Over the last 2 years, the international community has 
provided $120 million, including $40 million from the United States. An 
ongoing reform of the police is gradually tripling the salaries of most 
patrolmen, and that increase should extend to all police officers and 
patrolmen within the next year. In addition to low salaries, however, 
there is also the problem that corrupt officials have been skimming pay 
before it gets to the individual patrolmen. We are working with the 
Ministry of Interior on a new pay distribution system that uses 
electronic transfers instead of cash and a police I.D. system to reduce 
opportunities for fraud.
                                pakistan
    Pakistan continues to be a vital partner and ally in our fight 
against the Taliban and al-Qaeda. It is clear that the Taliban are 
under pressure from all sides, including Pakistan. Recently, Pakistan 
has launched attacks on training facilities and armed infiltrators, and 
has arrested Taliban leadership figures, in particular, according to 
press reports, Mullah Obaidullah Akhund, the former Taliban Minister of 
Defense. Pakistani leaders are committed to combating extremism and 
continuing to move the country toward a moderate course. Pakistan is 
absolutely key to the success of U.S. strategic goals in the region. We 
have supported the Pakistani authorities and will continue to support 
them.
    During his February visit to Islamabad, Vice President Cheney held 
positive and serious talks with President Musharraf about how, 
together, we can take strong measures to eliminate the threats from the 
Taliban and al-Qaeda. While we continue to encourage the Government of 
Pakistan to take action against violent extremists, we recognize that 
purely military solutions are unlikely to succeed. We, therefore, 
strongly support President Musharraf's efforts to adopt a more 
comprehensive approach to combating terrorism and eliminating violent 
extremism in the border regions, which include the Federally 
Administered Tribal Areas (FATA) and parts of Baluchistan. We are 
committed to supporting this initiative, to bring economic and social 
development and governance reform that will render these areas 
inhospitable to violent extremists.
    Additionally, we are working to harness the power of markets. To 
ensure that people have opportunities for employment and a chance to 
develop sustained alternative livelihoods, President Bush announced his 
support for the establishment of Reconstruction Opportunity Zones 
(ROZs) in Afghanistan and the border regions of Pakistan. By allowing 
certain goods manufactured in ROZs to enter the United States duty free 
as part of a comprehensive strategy of support for the Afghan private 
sector, this initiative can serve as a catalyst for increased trade and 
economic stability. The administration will be working this year with 
Congress, American industry, and the Afghan Government to implement 
this initiative and to give these people, who need jobs and hope for 
the future, an opportunity to join the world economy and build 
sustainable livelihoods.
                        international community
    At the NATO summit in Riga in November, as well as Foreign and 
Defense ministerials in January and February, NATO allies and partners 
reaffirmed their commitment to the Afghanistan mission. We have 
continued to press allies to fill force shortfalls in ISAF, and since 
last fall allies have pledged approximately 7,000 new troops to the 
mission; 3,200 of these are American, but the majority are 
contributions from other allies. While some caveats restricting 
operations remain a concern, allies have expressed a willingness to 
come to each others aid, should the need arise. We are also grateful 
that non-U.S. donors have pledged nearly $1.3 billion over the last 6 
months in new multiyear assistance. Of course, Afghanistan deserves our 
full effort and we believe the international community can and should 
do still more.
    We and our allies must recognize that success in Afghanistan is our 
only option. We must vanquish the voices of intolerance and extremism 
that turned Afghanistan into a land of lawlessness and intimidation, 
where Afghan citizens' rights were severely violated, and that provided 
a home to al-Qaeda. The people of Afghanistan badly want our assistance 
and understand all too well the consequences of failure; sadly, some 
are questioning our commitment to ultimate success. We must, together, 
restore their faith by continuing our work until a secure, stable, and 
more prosperous Afghanistan, based on the rule of law and human rights, 
is firmly established so that the country will never again fall prey to 
extremists and terrorists. The Afghan and American people are working 
collectively toward a future that is secure, prosperous, and free.
    We, at the Department of State, appreciate the committee members' 
interest and support of this most important endeavor. Thank you again 
for this opportunity to appear before this committee. I look forward to 
responding to your questions.

    The Chairman. Thank you, Mr. Secretary.
    We'll stick to 7-minute rounds, if that's OK, if we agree.
    Let me get right to it, Do you agree that the Taliban, al-
Qaeda, and other extremists are now operating in more areas of 
Afghanistan than they were a year ago?
    Mr. Boucher. I don't think so. I think, first of all, they 
have been very dominant in the south, and largely in the south. 
There have been--they have the capability of carrying out 
bombings, of sending suicide bombers to other parts of the 
country, and we've seen some of that, but I would say, by and 
large, it's the same or less, because parts of the south where 
they had operated pretty freely have been taken away from them. 
So, like some of the areas around Kandahar, the Panjshir 
Valley----
    The Chairman. So, you think it's actually less territory.
    Mr. Boucher. I think it's probably less. I would say, more 
or less, we're facing a similar situation. We'll see suicide 
bombers more throughout the country, though.
    The Chairman. What is the size of Afghan--the Afghanistan 
Army? And to what extent can they operate independently?
    Mr. Boucher. They are--I think they have about 35,000 
troops now. They are operating closely with our forces, with 
NATO forces. I don't--I think you'd have to get a military 
person to describe their capabilities to operate independently, 
but they operate very effectively, and very effectively with 
us. Their problem right now is that they're pretty strung out. 
They've been in the fight, and fighting well, but they're 
constantly working.
    The Chairman. How about the police?
    Mr. Boucher. The police have lagged behind a little bit. I 
don't have a number right off the top of my head for the 
police, but I guess I'd just have to say there's more and more 
every day, and they're starting to get more capabilities.
    The Chairman. What percentage of Afghanistan does the 
central government control, would you say?
    Mr. Boucher. It controls the north, the east, the west, the 
center. It has control of all the provincial capitals, many of 
the district areas in the south. At the same time, control 
means they have effective government, they have government 
officials, they have police, they have military.
    The Chairman. But are they government officials----
    Mr. Boucher. That doesn't mean it stops everything that 
might go on there.
    The Chairman. No, I'm not--I----
    Mr. Boucher. Yeah.
    The Chairman [continuing]. Understand that. Are you telling 
me, in the west, in Herat and other places, that Kabul is in 
control, or are the warlords in those areas in control?
    Mr. Boucher. I think there is basic national authority 
throughout the country. And obviously in some places, local 
authorities have a strong role. But previously dominant 
warlords in some of these areas have been moved out, and there 
is more effective national government authority.
    The Chairman. When--you know, there's a routine by which--I 
recall, when--over the first couple of years after the Taliban 
fell, I met fairly regularly, and for 6- or 8-, 10-month 
period, I don't--can't remember how long--but I met weekly with 
the then-National Security Advisor, Condoleezza Rice. And I 
remember going into her office at one point and making the 
comment that I thought that we were undercutting Karzai in 
Kabul on public-works projects, because we were going directly 
to the warlords and giving them the money for sewer projects, 
water projects, highway projects. And the comment she made at 
the time was, ``Well, that's always been the way it is. The 
warlords are there. That's just reality.'' Has there been a 
change in that philosophy? Do we actually--are we actually--
when--for example, we're about to, hopefully, appropriate a 
considerable portion of money for Afghanistan. Much of that--
some of that will go to public works projects. The PRTs will do 
some of it, but there will also be, I assume, direct 
appropriations. Need the mayor of a city somewhere in 
Afghanistan go through the central government to get the 
allocation, or does the allocation come directly from either 
AID or the Department of State or the United States Government? 
In other words, are we funneling all the aid for local projects 
through the national government, Karzai's government?
    Mr. Boucher. A lot of it does go directly through--to the 
central government, for the central government to spend, but--
particularly with the huge amounts that we're spending. A lot 
of it does go directly through--to the central government, for 
the central government to spend; but, particularly with the 
huge amounts that we're spending, a lot of it we spend 
directly, we contract directly. But we do it in conjunction 
with the national authorities, with the authorities.
    I was up in the Panjshir Valley, a very calm area, the PRT 
there works with the governor, they work on the roads that he 
identifies, and the local authorities identified. You know, 
he's the one that brings a project, cuts the ribbon. It's 
done--PRTs act in support of the local--of the national 
government. They act to extend the authority and the benefits 
of the national government.
    The Chairman. My observation--my time is almost up--my 
observation is that there is a direct correlation between who 
you have to go to, to get the money and the degree to which the 
person you have to go is viewed as having authority in the 
region. And I've been perplexed as to why--in order to try to 
build up the central government and Karzai's authority, why we 
have not increased his ability to have leverage on the 
political scene by allowing it to be known that that highway 
that's being built is not because of the local mayor--it's a 
little bit like today. If you go into the--into our States in 
highway funding, you don't have to go through the State, you 
can go directly to the local mayor or councilman, I promise 
you, the Governor's authority is going to be a whole lot less 
in a State. And it seems to me--that seems to me to be a 
missing piece. Maybe I'm--maybe I've misunderstood how you've 
changed allocations.
    But, to be precise, if the PRT gets a request to extend a 
road 2 miles into a village, or to reconstruct a water project 
that's been damaged, or build one from the start, or dig wells 
for--does that come directly from the local tribal leader or 
warlord? And I know we don't like using that phrase anymore, 
but they're still warlords. Or does the--do those requests get 
rationalized through the allocation of resources by the central 
government, say, ``No, no, it's better for us to put more 
emphasis here than there''? What--how do the PRTs interface 
with Karzai's ministers and Karzai's government?
    Mr. Boucher. Yeah. When I was in Panjshir Valley, sir, I 
saw this working. When people come to the PRT, a local village, 
and says, ``We need a school, we need a clinic, a road,'' the 
PRT's answer is, you know, ``Great, we'll try to help you. Talk 
to the governor.'' He's the one who's got to sort out the 
priorities, because everybody wants a school, everybody wants a 
road. He's got to decide where it's going to go. And, as the 
representative of Karzai, of the national government, the 
Governor is the one that sorts it out and decides where these 
things----
    The Chairman. I have 33----
    Mr. Boucher [continuing]. Which ones to do.
    The Chairman [continuing]. Seconds. For the record, explain 
the relationship between the Governor and that Governor's 
allegiance to the central government.
    Mr. Boucher. The Governor is an appointee of the central 
government, can be hired, fired, sent off. He works for Karzai. 
He works for the central government.
    The Chairman. OK, my time is up. I have a few more 
questions, later, about--if they're not asked--about the 
pledges we've received from other countries, how they've been 
forthcoming, if they've been forthcoming, and the like. But I--
and I--but I thank you very much. My time is now up.
    I yield to my colleague.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Just following up your last comment, I would mention that 
the Afghan Compact was signed in Afghanistan by 64 partner 
countries and 11 international organizations in January 2006, 
last year. Now, that Compact pledged $8.5 billion in new 
funding over 5 years of time. You've mentioned that some of 
that money has been forthcoming. And it is, of course, a 5-year 
pledge. But probably even more significant is the new funding 
that is being sought in the supplemental now and new efforts by 
our Government.
    Now, I attended a meeting that the President called, last 
week at the White House, that the Vice President and the 
Secretary of State attended with Members of Congress, and the 
entire agenda item was Afghanistan. The enthusiasm for doing 
things in Afghanistan in that meeting was a bipartisan 
enthusiasm. The same is exemplified here this morning. But, as 
I listened to the conversation, and participated in that, I 
wondered: Is there what would be called, in commercial life, a 
business plan for Afghanistan? By that, I mean, clearly, $8.5 
billion can do a lot. So could the $2 billion in supplemental 
that we're about to consider. But the question is, as a 
percentage of what complete plan, or--taking a closer look at 
it, a complete country, a so-called nation-building exercise, 
how many roads do we need to build? How much agriculture will 
need to be revamped? Or how much will it need, to turn on the 
lights? And I really ask this not simply to be difficult and 
hypothetical, but I believe that the endgame really depends 
upon having a comprehensive idea. Now, the figure may be a very 
large one, as we discussed last year, sadly enough, the 
destruction of Lebanon during all the controversies there, 
billions of dollars' worth of property were lost to 
individuals, as well as to the state, and it was not clear how 
that is ever going to be recovered in any period of time, just 
to get back to a level playing field.
    What I'm wondering is, When the $2 billion is asked for, is 
this asked for on the basis of our ability to administer that 
kind of funding, or the Afghans or some other group could 
administer it? In other words, we're limited by personnel, by 
logistics. Give some context, if you can, as to how this 
spending fits into a successful state, something in which all 
the objectives we've been talking about today, in terms of 
quality of life, are likely to arise to a point where there is 
confidence in that government, and stability after the money is 
spent over there and Afghans are on their own.
    Mr. Boucher. Senator, I think that's a--it's a really 
important question, and the answer is, really, the needs are 
infinite. If you want to just say, What more is needed? What 
we've tried to do with this funding request is--in a 
responsible manner, but address all the critical needs, the 
things that really needed to be done to change the momentum, to 
take the government and the benefits of government to the 
people throughout the country, but especially in the south and 
east, where the Taliban influence has been strong.
    You have to remember, in the fifties, sixties, and 
seventies, Afghanistan was one of the poorest nations in the 
entire----
    Senator Lugar. Yes.
    Mr. Boucher [continuing]. World. And then it went downhill 
for 25 years. As our Ambassador points out, that we talk about 
reconstruction--a lot of this is construction. We've built the 
ring road, we're now trying to build provincial roads 
connecting the provincial capitals, and we're trying to build 
the district road system. But we've--what we've identified in 
that supplemental request is really the road system for the 
south and the east. If you wanted to add the north and the 
west, you'd have another billion--$2 billion--billion, billion 
and a half dollars. So, what we're trying to do is all the 
critical things now to establish government, to build district 
centers and government provincial justice, and things like 
that. And that's what we think the $2 billion does. It--in 
terms of the reconstruction. The 8.5 on the military and police 
side tries to give Afghanistan a security force that is geared 
not on what we can afford or what they could pay for, in terms 
of salary, but, What do they need to dominate the situation, 
for the Afghan Government to establish security for its 
citizens in years to come? And that is one that's, I think, 
been well worked out by the military to accomplish the 
necessary tasks.
    Senator Lugar. Well, now, Secretary Boucher, you're 
correct, certainly, that the needs would be infinite. They 
would be, in our country, the----
    Mr. Boucher. Yeah.
    Senator Lugar [continuing]. Expectations we have. But I--
let me refine the question by saying--What level of spending, 
what level of achievement is likely to bring about confidence 
in the government, or the thought that there has been at least 
some observance of material change, so that there is a desire 
to proceed with regular civil government. This is as opposed to 
saying, ``Our security depends upon the Taliban,'' or whoever 
comes along, ``We're really back where we were, in the pits''? 
In other words, there probably is some incremental threshold of 
resources, less than infinity, that leads to some point of 
confidence, or, otherwise, we just simply are attempting to do 
a number of good things, hopeful that people will recognize 
that, that their mood will be better, vis-a-vis the United 
States or the allies or so forth, and, therefore, ipso facto 
for the Karzai government. But I--I want to get some parameters 
of where we're headed, in a multiyear way.
    Mr. Boucher. What we did is, we looked, over the course of 
last summer and fall, what works in Afghanistan. Where has 
various strategies worked and bringing in--you know, clearing 
out the Taliban with military force, bringing in police and 
government, building roads, clearing out irrigation, providing 
electricity, providing a new economy, new economic base--has 
worked--has worked in the east, has worked in, even, parts of 
the south. So, what we said is, What do we need, to do that 
more generally, throughout the problem areas in the east and 
south, and to help the government generally extend itself? And 
that's how we came up with these budgets. The road systems, the 
government provincial centers, the other pieces, the 
electricity grids, north and south, that we think we need--
electricity plan, take 6 percent of the population now on the 
grid, up to, maybe, 40 percent of the population on the grid. 
It's not overwhelming, but it's a critical mass, and it's 
critical areas. Above all, providing roads, electricity, 
security, gives a chance for the private sector to go. And 
they've had very good economic growth in Afghanistan. That's 
going to take them, in the long term.
    We've spent $2\1/2\ to $3 billion a year over the last 5 
years. We think this big push is needed to extend the effort 
more generally. But there will be a sustained level of 
commitment that we'll need to keep going, steady progress, I 
think, beyond this. Big push and steady progress, that's what 
will convince and sustain people for the longer term.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    Senator.
    Senator Cardin. Thank you.
    Mr. Secretary, thank you very much for----
    Mr. Boucher. Yes, sir.
    Senator Cardin [continuing]. Your testimony and for being 
here. And I appreciate the attention, in your statement, to the 
poppy issue in the--within Afghanistan, and how we are 
attempting, through some of our efforts, to provide 
alternatives for those who make their livelihood off the poppy 
seed, and your statement that eradication itself will not end 
the problem. I hope you would comment a little bit more in 
specifics as to how we are coordinating our efforts to deal 
with the narcotic issue within Afghanistan, and the impact that 
is having on achieving our objectives in that region.
    Mr. Boucher. The first element of coordination is between 
all the pieces of the strategy so that there is an effective 
public-relations campaign, there is targeted interdiction of 
traffickers. I think they're moving to increasingly high levels 
of the networks to try to take them down. Eradication is always 
accompanied with rural-development schemes, alternate 
livelihoods. And we've actually done most of the eradication in 
areas that have a lot of the assistance, even in the south 
Helmand province, where there's been the big explosion of 
poppy. The eradication forces are down there. They've 
eradicated something like 6,700 hectares of poppy so far this 
year; whereas, last year at this time it was down in the 
hundreds. So, there is much more eradication, but there's also 
much more roadbuilding, irrigation systems, jobs programs, 
variety of things, that give people other ways of sustaining 
themselves. We coordinate, also, internationally, especially in 
Kabul, with other key countries, like the British and other 
countries that are involved in the effort. And, of course, the 
effort is led by the Afghan Government.
    Senator Cardin. Are you receiving the cooperation that you 
need in order to deal with this issue? And let me just add to 
that. What other areas do we need to be concerned about in 
regards to the narcotics issues, as far as getting greater 
cooperation in order to achieve our objectives?
    Mr. Boucher. I think, first of all, I'd keep your eye on 
international cooperation--How do other countries step up to 
the plate and work? Second of all, I think what we think is a 
very important issue this year is taking down the trafficking 
networks and some of the big traffickers. And we've worked to 
try to make sure that the Afghan capability and the 
international capability are matched up there very closely.
    Senator Cardin. Are there particular countries that we 
should be concerned?
    Mr. Boucher. You know, I think how we work--we work very, 
very closely with the British on this issue, because they have 
been the lead nation. We're also working very closely with the 
European Union, generally, as they come up with a new plan to 
expand police training and to put more of their police trainers 
in, at the same time as we have vastly expanded what we're 
doing with police training. So, I think it's primarily the 
Europeans, and, of course, the Afghan Government, how they go 
after their own--you know, how they go after corrupt officials 
who might be involved in the drug trade is very important. 
We've very much supported that, and pressed them to do that, 
for example.
    Senator Cardin. I would hope that you would keep us--this 
committee informed as to other countries that we might have to 
put more interest on this issue, that may not be doing 
everything that we need them to be doing, or might, in fact, be 
hurting our efforts to deal with the trafficking of narcotics 
out of Afghanistan, so that, in our contact with these other 
countries, we underscore the importance of this particular 
issue.
    I want to get to troop levels for one moment. If you could 
just share with us as to how you see troop levels over the next 
12 months, 24 months, in Afghanistan--of United States troops, 
international troops that there--what can we expect in regards 
to the near future?
    Mr. Boucher. Well, I think, first, it's important to 
remember that, since NATO started to deploy, about 2 years ago, 
we have not cut U.S. troops; in fact, we added to U.S. troops. 
So, what you have is NATO expanding into areas where United 
States forces might have been thin, or Afghan forces might have 
been thin before. So, now there are many more troops in the 
country than there had been before. There are many more troops 
in the Afghan Army than they had been before. We have just 
added 3,200 troops. Other allies have announced increases--the 
British, the Australians, a few others. And we have really, I 
think, seen a lot of people step up to the plates, many of 
those who were already in the south. What we need to do is push 
to fill out the NATO requirements. There are still parts of the 
NATO requirements that are not full--troop levels, helicopters, 
a few other areas like that, that are critical to full 
achievement of NATO's goals, and we continue to press countries 
on that.
    And, second, we need to make sure there's the flexibility 
to use the forces in--wherever they're needed, whenever they're 
needed. And, you know, countries in the north and the center 
have important missions up there, but they also--you know, if 
they're needed in the south, we want 'em to be able to go 
there. And so, the flexibility with which countries allow their 
forces to be used is very----
    Senator Cardin. Do you expect that there will be a need for 
additional United States troops in Afghanistan over the next 12 
months?
    Mr. Boucher. I think, you know, we've identified the need, 
and we've identified the ways to fill out these additional 
3,200. As far as what I've heard from the generals, that's 
pretty much what's needed. And the important thing about them 
is, they're capable, they're flexible, they're mobile. And so, 
they're able to go and take the fight to the enemy, wherever 
it's needed.
    Senator Cardin. So, I take it the answer is, you don't 
anticipate----
    Mr. Boucher. I don't foresee other requests, but I--
that's--again, that's a military question, and I----
    Senator Cardin. Right, and----
    Mr. Boucher [continuing]. Those guys----
    Senator Cardin [continuing]. The NATO commitment--how short 
is the NATO commitment? How much--how many more are needed to 
be deployed?
    Mr. Boucher. I'd have to check. We're at about 85 percent 
of the need, so it's several thousand short--several thousand 
troops short. But the requirements have just been revised, a 
new set of requirements coming out to NATO countries, and I 
don't know exact--the accounting on that.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator.
    Senator Hagel. Mr Chairman, thank you.
    Secretary Boucher, welcome. Pursue, if you will, with me 
for a couple of minutes, the line of questioning that the 
Senator from Maryland was taking you along, on NATO 
commitments--not just troop, but dollars. You have noted in 
your testimony, ``We are grateful that non-U.S. donors have 
pledged nearly $1.3 billion over the last 6 months.'' Senator 
Lugar asked about this, as well, as did the chairman. And you 
also note in your testimony that, while some caveats 
restricting operations remain a concern--among the NATO 
nations, I assume is what you mean by that----
    Mr. Boucher. Yeah.
    Senator Hagel [continuing]. Would you enlighten this 
committee on what those caveats are? General Jones noted, in 
his testimony before the Senate Armed Services Committee last 
week, that there are some conflicts, contradictions, cracks in 
the NATO commitment--not all countries, but a number--to their 
willingness to contribute to our efforts in Afghanistan. And 
one of the specific things General Jones noted was that the 
Italian-led judicial reform efforts are, in his words, ``on 
life support.'' His testimony before the Armed Services 
Committee was not quite as rosy as yours. And if you could 
combine these pieces, and give us what you can about--starting 
with caveats that NATO nations have, and how that affects the 
pledges in troops, where we are with those pledges. And you 
mentioned the $1.3 billion over the last 6 months in new 
multiyear assistance. How much of that has come in? Where do we 
stand with the overall 5-year commitment?
    Thank you.
    Mr. Boucher. On the overall 5-year commitment, the pledges 
from London, our view is that most of that has been spent 
pretty well, that people are actually carrying out their 
commitments. Some of it's, you know, 2 years down a 5-year 
stream. But they, indeed--most of the countries that we've 
monitored have come through pretty well, and those who don't, 
we go tap them on the shoulder, remind them, and give them very 
specific suggestions. The Afghan Government came to a meeting 
in Berlin not long ago with a list of very specific suggestions 
about who can do what. So, we're trying to make sure the money 
is spent effectively. But, by and large, I'd say the pledges 
are being committed, spent, and made effective. And that's----
    Senator Hagel. Does that mean that they've actually 
produced the money?
    Mr. Boucher. Yeah, they've produced the money and turned--
--
    Senator Hagel. So, you think they're on track----
    Mr. Boucher [continuing]. And turned it into projects.
    Senator Hagel [continuing]. With the commitments they've 
made.
    Mr. Boucher. Yeah. Most----
    Senator Hagel. You don't see any of the--any difficulty 
with those commitments----
    Mr. Boucher. No major difficulties. The European Union--
it's a major donor--spends it very well. The Indian 
Government's a major donor, they spend it well. And so, we've--
and we do work with governments to make sure they not only 
pledge the money, but put it--put up the money and spend it.
    On caveats, it's--by and large, what you hear is from 
countries who say, ``Well, we got authority from Parliament to 
go on a humanitarian mission to Afghanistan. We don't have 
authority to put our troops into active combat.'' And we're 
saying, ``This is an alliance. Everybody needs to, you know, 
participate in whatever needs to be done.'' And because, you 
know, we had a Taliban resurgence, we have a mission to 
accomplish as an alliance. And we've seen a few of those 
caveats get lifted. We've seen contributions by countries that 
don't have caveats, some of these new troop contributions. So, 
I'd say the situation's a little better now. The French have 
dropped their caveats and said that they are ready to use their 
forces around the country whenever they're needed--they used 
the phrase ``in extremis''--to come to the assistance of other 
forces. We'll have to see, as circumstances and fighting 
develop, how often they, in fact, do that. But I was in Paris 
last week, and they told me the same thing again, with the--and 
said they were ready to act on it. So----
    Senator Hagel. Mr. Secretary, may I ask you a question on--
--
    Mr. Boucher. Yeah.
    Senator Hagel [continuing]. Specifically on this? Of the 
roughly 30 NATO countries, how many would you put in the 
``caveat'' column, one caveat or another? You've just noted 
one----
    Mr. Boucher. I----
    Senator Hagel [continuing]. Example.
    Mr. Boucher. I'd like to do it, sort of, carefully and 
figure it out. I'd--probably about a dozen.
    Senator Hagel. That have concerns, as you noted----
    Mr. Boucher. Some restrictions----
    Senator Hagel [continuing]. Caveats----
    Mr. Boucher [continuing]. On how they would----
    Senator Hagel [continuing]. Restrictions as----
    Mr. Boucher [continuing]. Use their forces.
    Senator Hagel. So, a dozen of the NATO countries.
    Mr. Boucher. Yeah.
    Senator Hagel. The rest are----
    Mr. Boucher. Yeah.
    Senator Hagel [continuing]. Well within the----
    Mr. Boucher. Yeah.
    Senator Hagel [continuing]. General comprehensive 
commitment----
    Mr. Boucher. That's right. And these--they all have 
important jobs to do. I mean, Germans up in the north, in 
Badakhsan province, you know, fighting poppies, supporting 
government. I mean, they're all doing good work and important 
jobs. We shouldn't denigrate the commitment.
    Senator Hagel. So, would your analysis----
    Mr. Boucher. We want----
    Senator Hagel [continuing]. Be that----
    Mr. Boucher. We want more flexibility.
    Senator Hagel [continuing]. Our NATO partners are 
cooperating as well as we would like, there are no significant 
difficulties with their commitments, fulfilling those 
commitments?
    Mr. Boucher. I would say NATO's doing well, and can do 
better.
    Senator Hagel. Thank you.
    If I could go on to Pakistan--as you know, President 
Musharraf signed an agreement with the tribal leaders along the 
Pakistan-Afghan border, intended to contain and weaken Taliban. 
I'd like your assessment of that, as well as answering this 
question. As you know, the House of Representatives passed, as 
part of its 9/11 bill, the new requirement that military 
assistance to Pakistan be conditioned on Pakistan's efforts 
against al-Qaeda and the Taliban, and progress on democratic 
reforms. What's the State Department's position on that? Two 
questions. Thank you.
    Mr. Boucher. On the border region, certainly asserting 
government authority there, getting government control there, 
is vital. I think the government is committed to doing that. 
There has been pressure on the Taliban from the government. 
There have been attacks on training camps and madrassas. There 
have been arrests of key figures. All of this, on both sides of 
the border, are trying to become more effective and do more in 
pressuring the Taliban. But there is pressure from both sides, 
including from the Pakistani side, and that's an important 
factor as they try to figure out how they're going to operate, 
this year.
    In terms of conditioning our assistance to Pakistan, 
we've----
    Senator Hagel. Well, let me ask--we'll come----
    Mr. Boucher. Yeah.
    Senator Hagel [continuing]. Back to that--is your 
assessment, then, on this agreement, that it's working?
    Mr. Boucher. No.
    Senator Hagel. We're satisfied----
    Mr. Boucher. No.
    Senator Hagel. You're saying it's not working.
    Mr. Boucher. On the Waziristan agreement itself, it hasn't 
done what it was supposed to do. It was designed to be an 
agreement with the tribal elders, where they would basically 
kick out the foreign fighters, they would stop the Taliban 
activity, and would stop the Talibanization. They haven't done 
that, for a variety of reasons, whether it's inability or 
unwillingness, but they have not effectively controlled those 
areas. And so, the government, in recent months, has really 
moved again with them to try to establish more effective 
control and reassert itself again. We want them to be 
effective. There is more to do, and they recognize that.
    Senator Hagel. If you could answer the second question, on 
the State Department's----
    Mr. Boucher. We're opposed----
    Senator Hagel [continuing]. Position----
    Mr. Boucher [continuing]. To the provision. We think that 
there is already effort from the Pakistani side, and that 
conditioning aid, the implication is that they have to be 
forced into it. We think they're doing it for their own sake, 
as well as ours, and that we should look at them as partners.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Senator Corker.
    Senator Corker. Continuing along the line of caveats, but 
really looking at our own troops there, what--is your 
observation that our own military troops are fully engaged in 
combating the Taliban? Are there caveats on what we're doing? I 
continue to get e-mails from parents and from--directly 
forwarded from troops on the ground there, on our side, that 
feel like they actually are held back from doing some of the 
things they need to do, to combat the Taliban. They're able to 
watch them actually gear up and set up mortars and be able to 
do the things they need to do, to counter our troops, and we 
have to wait until we're fired upon to actually do anything. 
Any observations in that regard?
    Mr. Boucher. I don't think that's the rules of engagement. 
We'd have to check with the military. But my observation is 
that our military are out there doing the job, and that they're 
doing the job militarily, they're taking the fight to the 
enemy, they're using their intelligence and information, and 
following up, and going after opportunities and targets. And 
they're also doing the job on the civilian side. One of the 
things we've done best is sort of blend the military's ability 
to put some money into reconstruction with AID's ability to 
come in quickly with projects and to--and the government's 
ability to provide authority, so that the security, political, 
and economic aspects of this are very well blended, and that 
our different agencies cooperate in doing that. So----
    Senator Corker. No----
    Mr. Boucher. I'm not aware of any restrictions on U.S. 
troops, sir, not----
    Senator Corker. As far as the reconstruction that we're 
doing there, we obviously--following Senator Lugar's comments--
a lot of money's being spent there, and--are we using outside 
contractors to do a great deal of that work, or are we actually 
trying to use Afghans to create economic growth in that regard?
    Mr. Boucher. We funnel as much money as we can through the 
Afghan Government, and have a big program to increase their 
capacity and ability to manage money. Then we use large 
contractors for some of the really big projects, the building 
of the road systems. Those are United States contractors, 
generally, but then they subcontract with Afghans. And there 
are programs to try to develop local business, local 
capabilities, so that, increasingly, the money from us and 
other donors can go to Afghan contractors. But we do use large 
contracts for some of these, you know, electricity grids, road 
system, kind of really big projects that need to be planned out 
carefully in all their pieces.
    Senator Corker. You know, as we're seeing in Iraq, 
obviously people being unemployed is a big part of what's 
creating many of the issues there. Back to the poppyseed issue, 
it's easy, I know, to say that we're training people to do 
other things. I know, in my own State of Tennessee, when the 
tobacco issue came up, that's sometimes easier said than done. 
Tell me, specifically--that's a pretty big statement, to say 
that these people are moving into other economic--other kinds 
of jobs. Tell me how we're actually doing that. It seems more 
difficult than just a statement.
    Mr. Boucher. It is more difficult than just a statement, 
because you can't find a crop that's as valuable as poppy. You 
can't say, you know, ``Grow pomegranates, you'll make more 
money,'' because you won't. It's more difficult. Poppy is an 
easy crop. You get the finance. It's easy to transport when you 
don't have a road. What you have to do--and we've seen this in 
the experience of countries like Turkey or Pakistan, that, at 
one time, were the major opium producers--you have to keep at 
it over time, you have to show government determination, you 
have to build a different rural economy. So, it's not: You give 
them a different crop. It's: You give them a road and 
electricity and irrigation, and they start growing fruit trees, 
but they also can process--you know, somebody sets up a 
packaging plant, and it's cold storage, so you can sell all 
winter long. Your brother-in-law starts driving a truck. Your 
sister sets up a handicraft business, because she can now 
market in the cities or in--somewhere nearby. And a different 
rural economy develops. So, you've got to do all these pieces. 
That's where the development strategy comes in.
    A lot of the immediate projects have to do with jobs. So, 
we're doing, like, helping villagers build cobblestone roads, 
where they built it, they maintain it, and it gives them an 
outlet from the village to a market town or a market road. And 
that creates jobs, but it also opens up that new economic 
opportunity. Repair of irrigation ditches in irrigation 
systems, so that once--they get the job to do the work, but 
once the job is finished, they have new kinds of agriculture 
that they can introduce. So, a lot of it's job-oriented, but 
also trying to develop that different kind of rural economy is 
really the long-term solution, and that's the precise goal.
    Senator Corker. What's the attitude of the Afghans toward 
their own military? I know that's obviously, again, in Iraq, 
been a huge issue. How are they perceiving their own military, 
from the standpoint of evenhandedness and their reliance upon 
them to actually create security?
    Mr. Boucher. It's very good. The polls that I've seen, you 
know, support for the national government and the military, is 
very high. The anecdotal evidence from governors and district 
chiefs and tribal elders is, they want these guys there, you 
know, their--one of their major demands for the insecure areas 
is, ``Assign policemen to our district. Send the military to 
our district.'' And there are many more demands than the 
military's capable of fulfilling right now. That's why the guys 
are so busy and constantly fighting. But they are wanted. I 
think building of the Afghan military, as a national 
institution, has been quite successful in Afghanistan.
    Senator Corker. OK.
    Mr. Chairman.
    Senator Lugar [presiding]. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, let me focus on Pakistan, because I don't 
think we can talk about Afghanistan without talking about 
Pakistan. And I think we all would like to know exactly how 
involved Pakistan is in either supporting the Taliban or 
tacitly allowing it to exist. And I think it's pretty clear 
that the Taliban existence in Pakistan plays a big part in 
helping to fuel the conflict in Afghanistan.
    Pakistan is one of the world's leading recipients of United 
States aid and has received more than $3.5 billion in direct 
United States assistance from fiscal years 2002 to 2006, 
including $1\1/2\ billion in security-related aid. So, would 
you say to the committee that, from your perspective, Pakistan 
is being 100 percent cooperative in its effort to combat 
terrorism and to quell al-Qaeda and Taliban forces?
    Mr. Boucher. I think Pakistan is enormously cooperative, is 
enormously engaged in this fight. No country has captured more 
al-Qaeda, or lost more men doing it, than Pakistan. They have 
also increased the effectiveness of their efforts in the border 
areas. We all have a long way to go, and there's a lot more 
that we--we're doing, and that they're doing that we're going 
to try to do with them. But I think, overall, if you look at 
Taliban and al-Qaeda, particularly on the al-Qaeda side, 
there's been an enormous effort from Pakistan, and they've lost 
a lot of people in that fight.
    Senator Menendez. So, if that's the case, I would gather 
from your answer that you believe they're being as supportive 
as they can be. Then why is it that the reports of the Vice 
President in a recent visit suggest that a Democratic Congress 
might cut off assistance if Pakistan didn't do more? Why would 
that statement be made, if, in fact, Pakistan is doing 
everything it can?
    Mr. Boucher. Well, I don't quite want to say they're doing 
everything they can, because I don't think any of us are. I 
mean, we just came up to the Hill and asked----
    Senator Menendez. Or doing as much as they----
    Mr. Boucher [continuing]. For billions more.
    Senator Menendez [continuing]. Should reasonably----
    Mr. Boucher. I think----
    Senator Menendez [continuing]. Expect.
    Mr. Boucher [continuing]. They have been doing more and 
more, and there is more we all have to do, including Pakistan. 
They don't have effective control of the border areas. They 
have arrested some leaders. There are more to be tracked down 
and arrested. They have stopped some of the training camps. 
There are more to be tracked down and eliminated. But they're 
in this fight, and they're in this fight because Taliban is a 
threat to Pakistan, as well as to us and the neighbors. And we 
want to help them. We want to work with them. We want to 
encourage them. And that's, I think, what, really, the Vice 
President did. He expressed our support for their effort, our 
willingness to support their effort, but also our 
encouragement, and talked to them about how we can all be more 
effective.
    Senator Menendez. Well, as I read those reports, it's a 
rather blunt encouragement.
    Mr. Boucher. We're very----
    Senator Menendez. It seems to me that the suggestion that a 
Democratic Congress might cut off funds to Pakistan, which no 
one has suggested, is a way to move them to greater action--for 
example, a New York Times article published in late January 
reported that the Pakistani city of Quetta, along the Pakistan/
Afghanistan border, serves as a rear base for the Taliban and 
that Pakistani authorities--this is a quote from the article--
``are encouraging, and perhaps sponsoring, the cross-border 
insurgency.'' And although President Musharraf denies such 
claims, the article goes on to say that, ``Residents of the 
border area, opposition figures, and Western diplomats point to 
specific cases of Pakistani involvement.''
    So, how does that make sense? And how do we justify our 
support if that's the reality?
    Mr. Boucher. Again, the Taliban do operate from Pakistan. 
They find sanctuary there, they find sources of supply there. A 
lot of their command and control is on that side of the border. 
They're a people that go back and forth. They're not under 
effective government control there, and we need to work with 
the Pakistanis to make it more effective.
    Senator Menendez. Do we believe that the Pakistani 
intelligence service actually continues to collaborate with the 
Taliban?
    Mr. Boucher. We have seen, I think, a lot of effort from 
the Pakistani's intelligence service against the Taliban, but 
there are those reports that say that some of their members 
might be keeping ties with their friends.
    Senator Menendez. Now, recently, Defense Secretary Gates 
met with President Musharraf, who, again, denied charges that 
the Taliban are staging attacks from inside Pakistan. However, 
a recent report says that at least 700 Taliban fighters crossed 
from Pakistan into Afghanistan to reinforce guerrillas 
attacking a key dam in southern Afghanistan. And the Iraq Study 
Group noted that Afghanistan's borders are incredibly porous. 
If you don't acknowledge that, in fact, Taliban fighters are 
working from within your country, going across borders, how is 
it that you can ever deal with it?
    Mr. Boucher. They do acknowledge it, sir. I know that the 
question gets asked different ways, and people answer it in 
different ways. But, I mean, they just announced--or just made 
public the fact that they've just picked up a major Taliban 
leader inside Pakistan. President Musharraf has said, frankly 
and point blank, that these people do operate from inside 
Pakistan, and that he's determined to go after them.
    Senator Menendez. So, you're satisfied with what the 
Pakistanis are doing.
    Mr. Boucher. I think we're satisfied the Pakistanis are in 
the fight, and we're working them--with them to become more 
effective, as we are working with ourselves and the Afghans to 
become more effective on the other side of the border.
    Senator Menendez. Now, do we expect simply a military 
solution in Afghanistan?
    Mr. Boucher. No. No. Not on either side of the border. 
We're also looking at how we can support the economic 
development of the Pakistani side so that people are brought 
into the national economy and have alternate opportunities. On 
the Afghan side, it's a very well---I think, increasingly well-
coordinated strategy of military action followed by the 
extension of government--and Karzai, as you know, just named a 
number of new officials for the south, for example, new police 
chiefs, district chiefs--with a smooth flow of reconstruction 
and development assistance. And what we've found is, where we 
do this well, it works, it stabilizes parts of the country. 
What we've come up with a request to do is so we can do it more 
broadly throughout the country, and continue to try to do it 
better.
    Senator Menendez. Well, you know, I don't think we have a 
blank check here. I don't think all that much progress has been 
made. And I think we have real challenges. Unfortunately, we 
diverted our attention from finishing the job in Afghanistan, 
and went into Iraq. But we look forward to continuing having a 
dialog with you on this.
    Mr. Boucher. Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Secretary Boucher, what's the point of our eradication 
policy?
    Mr. Boucher. It's to destroy the poppy. It's part of a 
complete package.
    Senator Sununu. Well, I think that's a true statement, that 
eradication is destruction. But what's the point? What's the 
goal?
    Mr. Boucher. It's to keep it out of the markets, keep it 
off the streets, and to establish that there is a significant 
element of risk in growing this crop, so that the farmer can't 
count on a sure return----
    Senator Sununu. Well, that's a----
    Mr. Boucher [continuing]. So that when he plants----
    Senator Sununu. I understand----
    Mr. Boucher [continuing]. He has to----
    Senator Sununu [continuing]. The message you want to----
    Mr. Boucher [continuing]. Decide----
    Senator Sununu. But if the point is to keep it off the 
street, then that places it, effectively, on par as a U.S. 
domestic drug enforcement effort, because we feel very strongly 
about preventing drugs from coming into this country. Is that 
a--is that a--are you telling me that's what the objective, the 
thrust of eradication----
    Mr. Boucher. That's----
    Senator Sununu [continuing]. Is about?
    Mr. Boucher. That's certainly part of the whole effort. I 
mean, a lot of this drugs actually flow into Russia and Europe, 
but we want to keep it out of----
    Senator Sununu. Well, it----
    Mr. Boucher [continuing]. The markets.
    Senator Sununu. And so--but if we're--if that's a true 
statement, if you really believe that, that's the thrust. So, 
what we're basically doing is placing this objective, as we 
have to make tradeoffs in the policy, against the other goals 
of improving security or economic issues and other areas where 
the eradication, as a policy, might work against our interest.
    Mr. Boucher. I don't think that's the case. I know I've 
heard a lot of people talk about this. But no country that's 
been a major drug producer has prospered as a healthy society, 
a stable government, and an economically diverse nation. 
We're----
    Senator Sununu. Which----
    Mr. Boucher [continuing]. Trying to get Afghanistan to the 
point where it can develop an economy, it can develop a 
country, without the corrosive and corrupting influence of the 
drug trade.
    Senator Sununu. That's an important point.
    Mr. Boucher. Yeah.
    Senator Sununu. Now, that's an economic point. And I would 
tend to agree with you, that, in terms of long-term economic 
prosperity, we probably want to encourage other areas of 
economic development. But, again, as an economic proposition, 
those long-term--that long-term potential needs to be traded 
off against the short-term effects that it would have on other 
important objectives.
    Mr. Boucher. I don't think----
    Senator Sununu. For example, security. And let me be more 
specific, because--look, if you're--a policy of eradication, 
first and/or only--and that is primarily what we're engaged in 
here. There are, of course, other economic development issues 
going on in the country which would take place whether we were 
engaged in a poppy policy of eradication or not. But that 
policy of eradication disenfranchises the rural population from 
those engaged in the policy, the Afghani Government and United 
States forces, coalition forces. It certainly creates a huge 
incentive for a much stronger relationship between that rural 
population and the Taliban, which runs against our security 
interests. And I think it makes it more difficult for, then, 
the Afghani Government to establish both order and a strong, 
ongoing relationship with the populations in those areas. And I 
think that we've got to recognize and be honest about that, 
because those are the negative consequences that have to be 
traded off against either the drug enforcement priority--and 
I--that's certainly a domestic policy and priority for the 
United States, and, I'm sure, for these other countries that 
would be affected by the movement of the drugs--or the long-
term economic concerns. But I think the short-term economic 
concerns are at least as important as some of the longer term 
ones. And obviously the--an eradication policy is not good, 
economically, for the farmer whose crops are being destroyed.
    Mr. Boucher. I think, first of all, it's a distortion of 
the policy to call it a policy of eradication. There are 
multiple pieces to this--education, interdiction, law 
enforcement, eradication, alternate rural economy. The--when we 
eradicate, we provide jobs, we provide economic opportunity, we 
provide a different rural economy for people. What--much of 
what we're eradicating are large holdings, drug barons, who are 
growing large fields, who have become rivals, and local 
authorities--and fight against local authorities, and try to 
prevent the application of national authority. A lot of that 
money does flow into the Taliban, so you need to--you need to 
stop that connection, you need to stop that flow, because 
you're feeding the insurgency if you allow the drugs to 
prosper.
    Senator Sununu. Don't you believe----
    Mr. Boucher. And you need to----
    Senator Sununu [continuing]. Or do you believe that the 
Taliban will have access to financial resources, whether it 
comes through the drug trade or not?
    Mr. Boucher. Yes.
    Senator Sununu. What's the cost of the eradication program?
    Mr. Boucher. We spend about $600 million, I think, last 
year, on the antinarcotics program, part of which is 
eradication, and a big chunk of which is roads and irrigation 
and jobs.
    Senator Sununu. You think $600 million is the total cost of 
our antinarcotics program--United States, allies, Afghan 
Government?
    Mr. Boucher. No. Because so much else of what we do----
    Senator Sununu. What is the total?
    Mr. Boucher. The--I don't know if I could do it, because 
the whole effort to establish security, extend government, and 
give economic opportunity is the essence of the fight against 
narcotics, as well as the essence of development of the 
country. And that's----
    Senator Sununu. Why not simply purchase the crop at the 
field and destroy it?
    Mr. Boucher. Because you get yourself into a bidding war 
with traffickers who have more money, frankly. The----
    Senator Sununu. I don't know that that follows. I think 
someone--a farmer at the field, especially in these regions, 
which are certainly impoverished, in many cases, are looking 
for--money to feed their family. And when an offer is made to 
purchase a crop and destroy it, they would rather be--I think 
many of them would rather be working with the government and 
obeying the law than not. So, if there's a program to 
participate in a purchase, I think they would be very willing 
to participate, and not necessarily looking to get more money 
from someone who's engaged in illegal or antigovernment 
activity.
    Mr. Boucher. Sir, he's going to follow the laws of 
economics, too. If there's more demand, he's going to supply 
more, he's going to grow more. You're merely encouraging the 
production, and you're getting yourself into a bidding war, 
where the margin for the traffickers from what they pay the 
farmers to what they get in the network is so big that they can 
just keep ratcheting up what they pay. You're just going to 
increase production.
    Senator Sununu. How much do you think it would cost to 
purchase the entire crop?
    Mr. Boucher. The--I'm trying to see if I have a number for 
the value of the crop. The legal economy has been expanding, 
so--$2-3 billion, probably, based on the numbers I've got.
    Senator Sununu. So, $2 billion, when we're probably 
spending between $1 and $2 billion now on eradication, which, 
at least under the eradication policy, we've seen growth expand 
to record levels last year, and you provide an optimistic 
forecast that will hold our ground on the total acreage planted 
this year; whereas, at least in theory, $2 billion--heck, in 
theory, $2 billion could take all of that off the street. If 
the bidding war you describe ensues, then perhaps you'll only 
take half of it off the street, with 50 percent margin of 
error. But my--the obvious direction this is headed is, has 
anyone even worked through how such a policy might work, and 
whether it might work? And what is our allies' thinking on this 
approach?
    Mr. Boucher. Our allies, the ones who were most involved in 
this, with the British and others, are as against it as we are. 
We've looked at this carefully. We've thought about this 
carefully, because people do propose it. We think it violates 
fundamental laws of economics, and that if you buy the crop 
this year, you're just going to get a bigger explosion of 
production next year, because everybody's going to want to grow 
it and sell it to you. And they'll sell it to you and everybody 
else they can produce for.
    Senator Sununu. You don't--so, a target--a program that is 
either a--broad or targeted, you don't think you have any 
ability to implement such a program, you know, without having 
negative consequences on those parts of the country where the 
economy is more stable, where people have substituted crops or 
built the refrigeration or done all the things you talk about--
--
    Mr. Boucher. Yeah.
    Senator Sununu [continuing]. That, suddenly, if you have a 
purchase program designed to target those areas where this is 
still a problem, everything else that you've put into place 
will fall apart?
    Mr. Boucher. I think--I don't know if it'll all fall apart, 
but I think everybody that could produce poppy and sell it to 
you would start producing poppy, and you'd destroy any moral 
basis for saying poppy is bad.
    Senator Sununu. And, to be clear, you're suggesting that 
you--that the United Kingdom, in particular, which has provided 
a lot of assistance in this area, the policymakers responsible 
for this issue haven't expressed any concern, dissent, about 
the current policy and program?
    Mr. Boucher. We--there are always discussions about how to 
do it more effectively, but they agree with the thrust of the 
program, and that's to stop the production of drugs and to 
provide people with alternative opportunities.
    Senator Sununu. Well, I appreciate your answers to the 
questions.
    Mr. Chairman, you know, I just have concerns, when you look 
at the growth, and when you look at all of the negative 
consequences of an eradication program, driving farmers toward 
the Taliban for financial reasons, causing friction between the 
government and the local population, diverting our military 
efforts--I think we need to, at least, take a very hard look at 
what we're doing and whether it's working, and whether it is 
serving our near-term security needs, because those have to be 
of the highest priority. The long-term economic needs are 
extremely important. We all want to get there. And, obviously, 
poppy cultivation can't be part of the long-term economic 
future of Afghanistan. But I think we have to talk at least as 
much about the short-term security needs of Afghanistan when we 
have this debate.
    Thank you, Mr. Chairman.
    The Chairman. Let me say, having spent 20 years working in 
this, I'm not sure your assertions, Mr. Secretary, are correct, 
because the market works the same way. You're arguing there's 
going to be alternative crops. You're just--not going to just 
eradicate. So, the question is, Why would they go to an 
alternative crop if they can stay in the crop they're in? What 
you're doing is--they're assuming you're going to buy them by 
providing an alternative crop.
    I would like to have a copy of whatever report you all have 
written and concluded what the judgment--the collective 
judgment of State Department is about the poppy program, so we 
have before the committee the actual document that sets out 
what the strategy is and why it's there. Because economics 
works the other way. The reason why they'd likely be eradicated 
or not, move to another crop substitute, is because of the 
premise my friend from New Hampshire pointed out, that there 
are those who would conclude that the risk of staying in the 
business is too high, coupled with their--they would rather 
make a decent living by doing something other than growing 
poppy. But I'd like very much to see something in writing as to 
what the discussions have been and what conclusions have been 
reached as to why the policy you've decided on is the correct--
why you believe it's the correct policy.
    Mr. Boucher. I'd be glad to get you something.
    The Chairman. Good.
    Mr. Boucher. I'm not sure I have everything off the shelf, 
but we'll get you something.
    [The written information submitted by Mr. Boucher follows:]

    We believe our overall five-pillar counternarcotics policy is 
sound. We are, however, developing strategic options to improve its 
implementation. We would be happy to share the results of our 
reassessment with you as soon as it has been approved by the 
administration and to provide a classified briefing as required.

    The Chairman. Well, I assume these discussions just don't 
take place in the abstract. I assume there's been actual----
    Mr. Boucher. No, there's----
    The Chairman [continuing]. Memorandum of understanding 
extended between us and the Brits and others as to how to 
proceed with this issue. I hope there has been, anyway. I hope 
it's not just casual conversation.
    Mr. Boucher. No; it's constant structured discussions. I'm 
just not sure where we have--whether we've put it all down in--
--
    The Chairman. Yeah.
    Mr. Boucher [continuing]. Writing.
    The Chairman. Well, I--it would be very helpful----
    Mr. Boucher. I'll get you----
    The Chairman [continuing]. If you could. I----
    Senator. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Following up on this discussion, which is, I think, a very 
important one, I think I understand the eradication program. 
And I think the question as to its validity needs to be deeper 
than the questions so far. They provide 92 percent of the 
world's illicit opium. Is that correct?
    Mr. Boucher. That's right.
    Senator Isakson. OK. That is a huge amount. Assuming we've 
eradicated it, and assuming we have--the Afghanis have 
operational control over the areas where it's grown, the 
question is, Can we supply them with the ability, the 
technology, and the potential alternative crops to replace the 
economic value of opium? Can we do that?
    Mr. Boucher. I think the answer is yes. What we've seen in 
Afghanistan is, the regular economy has been growing a lot 
faster than the economy of opium production. So, opium 
production used to come down to about 62 percent of the value 
of the GDP, now it's about 35. So, over the past 5 years, as a 
percentage of the total economy, it's gone down. So, we have 
seen growth in the rest of the economy. But it's--as we've 
talked about before, it's not just a matter of finding another 
crop that somebody can grow, it's giving a different economic 
opportunity. It's--so that you have processing plants and cold 
storage and transport mechanisms and handicrafts and production 
and, you know, cousins who get jobs in town and send money 
back. You need a different rural economy. And that's been the 
experience in places that used to be the major producers--you 
know, Thailand, Pakistan, and Turkey. It takes time. It takes 
government determination. And it takes a different rural 
economy. And we're--that's what we're trying to work in tandem.
    Senator Isakson. On that subject, we're currently in the 
midst of Operation Achilles. Am I correct that the--that 
theater of operation is the poppy-growing area?
    Mr. Boucher. Part of it's the poppy-growing area. There's 
also a lot of production farther south, in Helmand, as well.
    Senator Isakson. But it is the Taliban stronghold. And the 
Taliban strength, economically, is through the profits from 
opium trade, is that not correct?
    Mr. Boucher. They get other sources of funding, but, yeah, 
they get a lot of money from the drug trade.
    Senator Isakson. I was at the World Security Conference in 
Munich about a month ago, and I met with the Secretary General 
of NATO. We have a bit of a mystery that doesn't get written 
about too much there are as many foreign allied troops in 
Afghanistan as there are Americans. There's a total 46,000. We 
have 23. A number of other countries have an additional 23. And 
the majority of them are carrying out Operation Achilles. And 
there's a great deal of support from the European community. I 
think Germany's putting in 6 more Tornados and the support to 
back them up. We got Mullah Mahmoud last night, trying to slip 
out of Afghanistan in a burqa. So, obviously, things are 
getting pretty uncomfortable. If that success materializes in 
that area of Afghanistan and Operation Achilles gets 
operational control under Afghan security, the key to not 
wasting that effort is going to be quickly following up on 
these alternatives so that economic diversity can grow in a 
relatively short period of time. Am I not correct?
    Mr. Boucher. Absolutely. And we've put enormous effort into 
this--what we call a comprehensive approach, and we've been 
trying to work that through with allies and NATO countries. 
That's the message the Secretary of State took to her NATO 
meeting in January. Secretary Gates took it to the Defense 
Ministers. And we're working very actively with NATO countries 
so that assistance, Afghan Government, and reconstruction, and 
military security are all worked together so that they work 
simultaneously. Had very successful operations earlier this 
year around Kandahar, Operation Medusa, that did very 
effectively. And that's what Achilles is going to do, as well.
    Senator Isakson. If I remember correctly, when Secretary 
Rice was here and we reviewed the Department's budget, there 
was almost as much money for Afghanistan in this area as there 
was Iraq. Am I remembering that correctly?
    Mr. Boucher. I'm afraid I don't know the numbers on Iraq 
off the top of my head, sir.
    Senator Isakson. Anyway, I think it demonstrated, contrary 
to popular belief, that we have a continuing significant 
commitment in Afghanistan to sustain an actually more secure 
democracy, get rid of the illicit trade of the opium, and also 
defund and demoralize the Taliban.
    Mr. Boucher. Absolutely. And the supplemental funding 
request we're making is a really big push, and we hope to not 
only make the big push, get in there more broadly where we need 
to, but also sustain it over the years. It's going to have to 
be a long-term effort.
    Senator Isakson. And just to confirm what you were saying 
in answer to the questions on eradication, when I was in Munich 
meeting with the security people--where Putin came and made his 
infamous speech, a month ago--there is unanimity on this 
eradication program within NATO and within the European 
community that it's the right approach, just as long as we're 
able to follow it with relative security and the alternatives 
to allow the economy to grow.
    Mr. Boucher. There is unanimity on the comprehensive 
approach, the five-pillared approach to narcotics. And there is 
always debate about how much eradication, and when and where, 
what kind of eradication, versus, Are we bringing enough 
alternate-livelihood money? And we've, I think, worked that 
out, on an ongoing basis.
    Senator Isakson. Well, I appreciate your and the 
Secretary's continuing work. Thank you.
    Mr. Boucher. Thank you, Senator.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me go back, if I can, to this. I'm going to take 
another round, if I may. Mr. Secretary, you indicated that the 
purpose was to--of eradication--was to prevent this poppy from 
coming into the United States and other countries. Isn't one of 
the overwhelming reasons for it to stop being able to fund the 
warlords and fund--where is this money going? Where is this 
illegal money going?
    Mr. Boucher. The money goes into drug barons. The Taliban 
siphon off some of it. A little bit--a little bit of it goes to 
farmers. But, largely, it goes into the traffickers and 
trafficking networks and the----
    The Chairman. And who are----
    Mr. Boucher [continuing]. People that they pay off.
    Senator Isakson. Who are the traffickers?
    Mr. Boucher. Some of them are what you might call warlords, 
people connected to former centers of power. Some of them, I 
think, are just people who----
    The Chairman. Do we have them identified?
    Mr. Boucher. We are----
    The Chairman. I'm not going to ask you, publicly, who they 
are, but do we have----
    Mr. Boucher. I guess I'd say----
    The Chairman [continuing]. Them identified?
    Mr. Boucher [continuing]. We're increasingly closing in on 
identifying them. Some have been picked up and arrested in 
Afghanistan, by the Afghans--a lot of mid-level people, a few 
top-level people. But I think we--our drug people tell me----
    The Chairman. Well, what was told----
    Mr. Boucher [continuing]. We're getting closer and----
    The Chairman [continuing]. Is some of the----
    Mr. Boucher [continuing]. And closer.
    The Chairman [continuing]. Better-known warlords, the 
people who we know--we know their names, they've been around 
for a considerable amount of time--are significant 
beneficiaries of this, that they are cooperating, making their 
own deals with the Taliban, they're buying off one another, 
that they are part of the problem that relates to the physical 
security of our troops and NATO troops there. I would like--
again, in classified form, if need be--I would like to have the 
committee briefed on--not generically, specifically who--
because if you need help, I can give you the names of some of 
them. I'm not being facetious. It bugs me that we have these 
generic assertions that, ``Well, you know, it goes to some 
people and goes to drug lords.'' My understanding is, from both 
our military and intelligence people, it goes specifically to 
warlords we know, who have been giving Karzai a hard time, who 
are maintaining control of regions of the country, who have cut 
their deals not only with traffickers, but cut their deals with 
being able to fund their private armies and their militias. And 
so, if I'm wrong about that, I'd love to hear about it, but I'd 
like a--if you would arrange for a classified briefing for us 
on who the money's going to. It's billions of dollars.
    Mr. Boucher. It's----
    The Chairman. It's billions of dollars.
    Mr. Boucher. It's a lot of money.
    The Chairman. It far exceeds anything we're putting in. I 
mean, in terms of thus far, if you added it all up, as I 
understand it. But if I'm wrong about that, I'd like to be 
corrected----
    Mr. Boucher. I don't think that's----
    The Chairman [continuing]. On it.
    Mr. Boucher [continuing]. Quite true, because the overall 
Afghan economy last year was about $9 billion, and the value of 
the drug trade was 35 percent. So, that put it about $3 
billion. It's a lot of money.
    The Chairman. Yeah.
    Mr. Boucher. It's a lot of money.
    The Chairman. And----
    Mr. Boucher. Sir, the--some of the warlords have been 
marginalized. Many of them have accepted the new governing 
arrangements. I wouldn't say that all of them----
    The Chairman. Well, what I'd like to have, with your 
permission----
    Mr. Boucher [continuing]. Are involved, but we--there are 
people involved in the drug trade that have----
    The Chairman [continuing]. In a classified setting, I'd 
like the names of the warlords, each of them--we know them--and 
what our estimate is of their participation. It would be really 
sad if we didn't know that, or have an estimate, so I hope I 
don't get back ``that's unknowable,'' because it is knowable. 
And, if it is unknowable, then we're in real trouble. We are 
absolutely incompetent if that's the case. But--so, I'd very 
much like to have that, for the record.
    Mr. Boucher. We know a lot about a lot of people----
    The Chairman. I know, and----
    Mr. Boucher [continuing]. And we'll get you classified----
    The Chairman [continuing]. We'd like to know what you know, 
to determine whether what you know is enough to need--that 
needs to be known, because we don't have a lot of--I don't have 
a lot of confidence, so far, in the way we've handled 
Afghanistan.
    Let me also point out that you indicated that you think 
things are better, yet in 2006, 4,000 people killed. And, 
according to the U.S. military, Taliban attacks surged by 200 
percent in December. Since September, when Musharraf signed his 
peace deal with the extremists, the number of attacks of cross-
border have increased by 300 percent. Suicide bombings have 
gone from zero in 2002 to one every 3 days in 2006, with 
apparently--at least I don't see much relief in sight. I could 
be wrong about that. But let me ask you about reconstruction 
details, if I may.
    The--according to the Congressional Research Service 
analysis, the funds for civilian reconstruction the President 
requests come to less than the amounts in some prior years. And 
fiscal 2005, seems to have been the high mark in past years. 
The administration proposal that--this 11-point-whatever it is, 
would provide $1.8 billion for fiscal 2007, regular and 
supplemental combined. And that--and $1.4 billion for fiscal 
2008. But, by comparison, in 2005, it was $2 billion. So, as I 
look at this, the reconstruction number is actually going down, 
not going up, from 2005. Two thousand five highwater mark, $2 
billion, yet combined 2007 and supplemental is $1.8, and the 
request for 2008--I mean, excuse me--combined for 2007, regular 
and supplemental, is $1.8; total for 2008 in the President's 
request is $1.4. Yet, in 2005, it was $2 billion. Is this an 
accurate analysis, or is the Congressional Research Service 
incorrect?
    Mr. Boucher. I'd have to look at the numbers. It just 
sounds wrong. I mean, we spent $14.2 over 5 years. That works 
out to $2\1/2\ billion a year. And now we're asking for $11.8 
to spend over----
    The Chairman. But I'm talking about----
    Mr. Boucher [continuing]. Two years, that's $5 billion a 
year.
    The Chairman [continuing]. Reconstruction, specifically. 
Reconstruction money, specifically.
    Mr. Boucher. Even on the reconstruction side, we're looking 
at--you know, you can take out the training of army and police, 
even--we're looking at $2.2 to spend over the next 2 years.
    The Chairman. Over the next 2 years. So, that's, you know--
--
    Mr. Boucher. 2007 and 2008. So, that's----
    The Chairman [continuing]. $1.1 a year.
    Mr. Boucher [continuing]. $1.1 billion. We've had, in--what 
I know is about $1 billion a year, a little less. So, this is 
more.
    The Chairman. Well----
    Mr. Boucher. I'd have to look at the numbers, sir, but I 
think what we've tried----
    The Chairman. I----
    Mr. Boucher [continuing]. To do is, do a whole program that 
addresses all the needs.
    The Chairman. But, again, what you--what--the impression 
being left here is that we have to win the hearts and minds. 
The way in which the Karzai government and a democratic 
Afghanistan, from--in Kabul, a central government, is going to 
be able to do that, is by changing the status of the life on 
the ground for people, in terms of reconstruction, not just 
security, but in terms of the change in their daily lives. 
There's discussion here among various Senators--I think the 
Senator from New Jersey raised it--about everything from 
electricity to schooling to whatever, and that's all in the 
reconstruction piece of the equation. Yet, as I look at the 
reconstruction piece, at best you're about even with what 
you've done in the last 5 years, which is woefully inadequate, 
in my view, and, at best, it's less than what it was in 2005. 
So, if you could give us an analysis of whether or not my 
assessment is incorrect--and I hope it is--I'd be delighted. 
OK? Because----
    Mr. Boucher. We'll get that to you.
    The Chairman. Because it makes it sound like we're really 
doing something different, and the truth of the matter is, I 
don't think we're doing something radically different, in terms 
of funding for reconstruction. Now, we are doing more, finally, 
in terms of training the police. We are doing more in terms of 
training of the military. And we are doing more in sending more 
of a physical presence, more troops. But, again, remember the 
premise. It was the same premise the President put forward 
years ago with regard to Iraq when he said he needed $18.4 
billion. The rationale for that wasn't we needed that to 
provide for security, it was we needed that to get the lights 
on, we needed that to get the sewers functioning, we needed 
that to get, you know, the public works, the roads, the 
highways, the potholes filled, et cetera. And that was the only 
way we were going to fundamentally alter the attitude of the 
people in Iraq about our not being an occupier. Well, we're 
saying the same thing, the same basic premise, as I understand, 
that we're starting off with here is that we have to deal with 
security, but that's not enough. We can't do this militarily, 
we can't do this merely by training Afghan forces, we have to 
do this by changing the lives on the ground as it return--as it 
relates to their ability to have potable water, et cetera.
    And so, if that is true, and if my analysis is correct, it 
looks to me like we're not doing much that we haven't done the 
last 5 years, which hasn't been enough.
    Mr. Boucher. What I'd say, sir, is that the premise is that 
people want the whole package. People expect their government 
to give them safety and justice and government services, and a 
road and electricity and economic opportunity.
    The Chairman. Let's assume they get safety and justice----
    Mr. Boucher. Well, we're trying to----
    The Chairman [continuing]. And the rest. This doesn't----
    Mr. Boucher. Well----
    The Chairman [continuing]. Get them any more roads. This 
doesn't get them any more potable water. This doesn't get them 
any more than they've gotten the last 5 years, which they're 
clearly unsatisfied with.
    Mr. Boucher. Well, it gives them more, because they've got 
the road that was built last year, and they're going to get the 
road that's built next year. I mean, it's--there is the 
incremental increase.
    The Chairman. Well, with all due respect, Mr. Secretary, I 
think that's a--we are so far behind the curve. But we can 
argue about that. I'd just like an analysis.
    Mr. Boucher. Yeah, we'll give you----
    The Chairman. Are we, in fact, doing more on reconstruction 
than we've done in 2005? And, if we are, how much more? Just 
flat reconstruction. That's my second round.
    [The written information submitted by Mr. Boucher follows:]

    Foreign operations assistance to Afghanistan--in absolute terms, 
but also as a percentage of overall U.S. Government assistance to 
Afghanistan--has decreased from its height in fiscal year 2005. In 
fiscal year 2005, foreign operations assistance accounted for about 
$2.9 billion, or approximately 60% of overall U.S. assistance to 
Afghanistan.
    In fiscal year 2007, which includes the recently passed 
supplemental, foreign operations assistance accounted for about $1.8 
billion, or approximately 18% of overall U.S. Government assistance to 
Afghanistan. The other 82% is mostly funding for the Department of 
Defense.

    The Chairman. I'll yield now. I see the Senator from 
Wisconsin is here. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman. Thank 
you for allowing me to make a brief opening statement, but I'd 
rather just ask that it be put in the record, the full 
statement.
    The Chairman. Without objection, it will be.
    Senator Feingold. And I want to thank everyone for coming 
here to testify before the committee today.
    And I want to thank you, Senator Biden, for arranging the 
hearing.
    The situation in Afghanistan is critical to our national 
security. Unfortunately, obviously, recent reports about 
worsening security, a resurgence of the Taliban, increased al-
Qaeda operations, and increased poppy production in 
Afghanistan, are really painting a pretty troublesome picture.
    Let me ask you some questions, though, sir. DIA director, 
General Maples, testified in November that al-Qaeda appears to 
be attempting to reinvigorate its operations in Afghanistan and 
that its relationship with insurgent networks is, 
``increasingly cooperative.'' That strikes me as a pretty 
profound failure of our policies. Do you agree?
    Mr. Boucher. What we've seen in the past year has been a 
resurgence of the Taliban and a reconnection of al-Qaeda and 
their ability to operate. We're there, we're trying to meet 
them. And I think we're better set up this year to deal with 
than we were in previous years.
    Senator Feingold. What does it say about our policies, 
though, that have caused----
    Mr. Boucher. It says we haven't finished the job. We threw 
them off for a while. We pushed them out. But they've been able 
to regather and regroup and start to come back at us. They came 
back last year. We stopped them from achieving their goals last 
year. But we haven't established dominance or got them on the 
run yet.
    Senator Feingold. What conditions on the ground have 
permitted this to happen, to allow al-Qaeda to reinvigorate 
operations in Afghanistan?
    Mr. Boucher. I think it was the fact that there are large 
parts of this country that weren't effectively governed, 
including parts of Pakistan that were not effectively subject 
to government authority.
    Senator Feingold. During the Karzai period, you're talking 
about.
    Mr. Boucher. During the last couple of years, yeah.
    Senator Feingold. General Craddock was quoted, in January, 
saying that the war in Afghanistan is an, ``economy-of-force,'' 
operation, which means fewer resources. What are the 
opportunity costs posed by Iraq, in terms of troops and 
resources in Afghanistan?
    Mr. Boucher. I don't think there's been, really, much of a 
tradeoff at all. I know when the--when the surge was announced 
in Iraq, the first question we got from the Afghans are, you 
know, ``Are you going to take them out of here?'' And the 
answer is, no; we've--actually adding to Afghanistan. And so--
whereas, a couple of years back, you had 20- to 25,000 total 
forces, maybe 30, now you've got 46,000, because the United 
States has, in fact, increased, even as NATO has put these 
major increases in.
    Senator Feingold. Are you saying that the Iraqi war has not 
taken any resources--personnel, money, intelligence, others--
attention away from Afghanistan?
    Mr. Boucher. Certainly in terms of our overall national-
needs, we're putting a lot of money into both, but I'm not 
aware of any circumstance where we've cut back in Afghanistan 
to send something to Iraq.
    Senator Feingold. I've heard differently both in 
Afghanistan and through many sources here, that it--there's 
been some real-tradeoffs that have weakened our situation in 
Afghanistan.
    What do you think General Craddock called--why do you think 
he called an ``economy-of-force operation''?
    Mr. Boucher. I'm not sure when he did that. Was that 
recent?
    Senator Feingold. Relatively recent, yes.
    Mr. Boucher. I----
    Senator Feingold. I believe I--I've certainly read an 
article about it in the last month, that----
    Mr. Boucher. I don't, frankly, know. I'm not sure what the 
phrase means to military men. There is a very large efforts 
being made. We've just increased that effort. We've increased 
the forces. And we're increasing the Afghan Army's ability and 
capabilities. So, what I see is an ever increasing military and 
security capability.
    Senator Feingold. In November, CIA Director Hayden 
testified to the Armed Services Committee that, ``little 
progress has been made in constructing an effective Afghan 
national police force.'' What new initiatives or resources will 
be needed to finally build up the police?
    Mr. Boucher. Yeah. The police, I'd say, have generally 
lagged behind the military. What we're doing now is trying to 
build the institutions that sustain the military, the--I'm 
sorry, the police, the--you know, the pay system, personnel 
systems, things like that, so they can become a good national 
institution. The rates of training have been stepped up quite a 
bit. Europeans are about to launch another major effort on 
their part to put more into police training, more mentors in 
the field. We've also, since last fall, started to train what 
are called auxiliary police, which are local people who get 
basic training as policemen and are put on the administrative 
interior payroll, so they come in the national system, but 
they're more effective on the spot right away than the other 
recruits who have to go through longer training in different 
systems.
    Senator Feingold. In a recent hearing on his nomination to 
be Ambassador to Afghanistan, William Wood said that he thought 
the recent increased efforts by the United States to react and 
respond effectively to changes in Afghanistan appeared to be 
``balanced.'' Do you agree with this assessment, or are there 
specific changes that the U.S. Government should make in order 
to react and respond effectively to these new conditions on the 
ground that we've been discussing?
    Mr. Boucher. I think, absolutely, there is balance. There's 
balance in what we're doing, there's balance in what we're 
requesting from the Congress. The point is that security, 
extension of government, and economic opportunity have to go in 
a very tight, coordinated fashion, and that's how the entire 
strategy has been played out, where it's--in parts of 
Afghanistan where it's worked really well, we've done it in a 
very well-coordinated fashion. Now we want to do it more 
broadly, throughout the country, and try to do it better--try 
to do it better, including coordination with our allies, NATO, 
and reconstruction assistance that comes with NATO.
    Senator Feingold. Finally, Secretary Gates said, during a 
February 6, 2007, hearing that, ``part of the problem with the 
money aspect of it''--the opium drug trafficking--``is 
certainly not that the farmers get it, but that it fuels the 
Taliban and it fuels corruption.'' The Department of State's 
Narcotics Control Strategy Report also noted that there is a 
direct evidence linking the insurgency in Afghanistan and 
narcotics. How direct is the link in the increased poppy 
production with the resurgence of the Taliban?
    Mr. Boucher. It's--there's certainly a lot of money that 
comes out of the drug trade that ends up in the Taliban. It--a 
lot of it looks like it's payoffs and taxes, not Taliban 
actually directly growing the drugs themselves, and selling it. 
So, they're parasites, I'd guess I'd say, major beneficiaries 
of this trade, in that they pull money out of this major 
financial flow.
    Senator Feingold. Let me ask it this way. If the Taliban 
structure were significantly weakened, would see we a decrease 
in illicit opium production?
    Mr. Boucher. Probably, because we would see more areas 
under government control, where the alternatives are there, 
where we can bring in the other economic opportunities. 
Effective government control and economic opportunity are--you 
know, we can do that in areas where the Taliban are no longer a 
threat.
    Senator Feingold. Thank you for your answers.
    Mr. Boucher. Yeah.
    [The prepared statement of Senator Feingold follows:]

    Thank you for coming to testify before the committee today and 
thank you, Senator Biden, for arranging this hearing. the situation in 
Afghanistan is critical to our national security. Unfortunately, recent 
reports about worsening security, a resurgence of the Taliban, 
increased al-Qaeda operations, and increased poppy production in 
Afghanistan pain a very troubling picture.
    Furthermore, the war in Iraq continues to draw attention and 
resources away from the fight against terrorism in places like 
Afghanistan, the country from which the attacks of 9/11 were planned.
    I am pleased the NATO is increasing its efforts in Afghanistan--
robust military operations in Afghanistan are absolutely critical at 
this time. It is not our national security interest not only to support 
NATO forces but to deploy additional U.S. forces if they are needed to 
compensate for NATO's shortcomings. I have been concerned that our 
military commitment to Afghanistan has been insufficient and while I 
welcome this month's offensive, our presence there must be sustained.
    Increased NATO support should ;not be used as an excuse to 
shortchange our military role or our reconstruction and 
counternarcotics efforts. We need to match our military and 
counterterrorist operations with sufficient resources to help the 
Afghan Government extend its reach--and legitimacy--throughout the 
entire country.
    Afghanistan has the potential for being a flagship success in the 
international fight against terrorist networks; it could also easily 
become another unending and botched engagement in which the U.S. 
Government has no discernable strategy for success.
    The administration needs a clear strategy in Afghanistan that links 
together tightly those policies and programs needed to develop a viable 
state--including economic, political, judicial, and security sector 
development--with our efforts to defeat terrorist networks in the 
region. Without such a strategy, we run the grave risk of leaving 
behind a weak government susceptible to extremism and the influence of 
powerful warlords, and a region vulnerable to the resurgence of 
terrorist networks. Unlike in Iraq, we have the capabity, through a 
sustained, comprehensive commitment, to bring stability in Afghanistan. 
We can do so in a way that is sustainable, in terms of military and 
other resources. And the American people not only support our efforts 
in Afghanistan, they expect that we will direct the resources and 
attention needed to achieve victory.
    If we take the right approach--one that encompasses a fully 
integrated military, diplomatic, and political strategy--we can stop 
Afghanistan from becoming a failed narco-state, a haven for terrorists 
and a direct threat to our Nation.

    The Chairman. Thank you for being on time, Senator, I mean, 
in your questions.
    We have--I just would point out to my friend from--I'm 
going to hold him to 7 minutes. Like everybody else, we went 
over a few. General Jones has--is our--on the next panel, and 
he has to leave at 11:45, so I very much want to hear what he 
has to say. So, Senator, if you could--and I will yield to both 
of you to ask your questions of General Jones first. But if we 
could keep this portion to 7 minutes, it would be good. OK?
    Senator Casey. Mr. Chairman, thank you very much. And thank 
you for calling this hearing.
    Mr. Boucher, thank you very much for being here and for 
your important work that you've done over many years for this 
Government.
    I wanted to ask you about security in Afghanistan. And I 
know in your statement you indicated that you felt that NATO 
and United States and Afghan forces were more capable and 
better positioned, and, thus, enter this year, and enter what 
could be a very difficult springtime, with more confidence. Can 
you elaborate on that and just give us a sense of what the 
indices of that are, the markers that you think make this a 
period where they can have that kind of confidence?
    Mr. Boucher. I think if you look back a year ago, the 
numbers were smaller, the capabilities were less, the numbers 
of Afghan troops were less. We have now increased the size of 
the Afghan Army, and they're much more active in the field. 
NATO forces are there. U.S. forces have increased, as well, 
with more flexibility to operate, so there's more of a presence 
throughout the nation. Helmand province, last year, had a 
couple of hundred troops from NATO and an Afghan Army; now 
they've got thousands.
    In addition, the Afghan Government has extended its reach. 
President Karzai made a number of decisions on sending out 
better police chiefs, district officers, into the south as--
well, throughout the country, but including the south. And 
we've been able to do more assistance--get more assistance 
money down there. So, I think we're better positioned, we're 
more capable on all aspects, on security, governance, and 
economics. But, again, that the enemy has been spending the 
winter, you know, building bombs and designing tactics, and 
it's going to be nasty, and it's going to be difficult, but I 
think we're better able to cope.
    Senator Casey. And you may have addressed this earlier. I 
had some conflicts and wasn't here until later in the hearing, 
obviously. But it always bears repeating, in terms of an 
important point that we should make. With regard to our troop 
levels, where are we now? And do we have a level that's 
adequate to confront which we expect, which is a pretty strong 
spring offensive--at least that's the expectation--spring 
offensive by the Taliban and by al-Qaeda or any other organized 
group?
    Mr. Boucher. We're at about 23,000 troops now. I think 
we'll have the additional forces, another 3,200, that will go 
in there. When I talked to the military last fall, and said, 
you know, ``What do we need for the springtime?'' this is what 
they said they needed. The decision made to assign these forces 
is based on the request of General Eikenberry and the 
commanders in the field.
    We're still not at the full staffing of the NATO levels. 
The NATO force requirements that have recently been revived--
revised. We've seen more pledges from other countries, NATO 
members--Australia, people like that--but there's still more 
that we want to see from the NATO allies, in terms of what they 
provide to the mission, but, also, we want to get rid of any 
restrictions they have on the use of their forces.
    Senator Casey. If you say there's a need there, why do you 
think they're not forthcoming on that? What's the holdup?
    Mr. Boucher. Countries have other obligations. They say 
they don't have the forces, they think somebody else should go 
first, they think they're already doing enough. There are a 
variety of things people say, or--but I think, in the end, you 
know, we've seen 7,000 new troops pledged for Afghanistan since 
the Riga Summit last fall; 3,200 of those are Americans, but 
the majority is still foreign troops. So, we're getting there. 
We're just going to keep pushing.
    Senator Casey. And just, finally, I know we've got to wrap 
up, but I wanted to ask you about the growing Taliban 
insurgency and why do you think that is? Where do you think 
that emanates from, in terms of that resurgence? Are there 
multiple reasons, or is there a more singular reason for----
    Mr. Boucher. There are a lot of different reasons. I think 
it goes back to the fundamental problem of 9/11, and that's 
ungoverned spaces. 9/11, we had a country that was hospitable 
to terrorists, that was not governed and controlled. The 
ungoverned spaces, parts of Afghanistan have been--had not had 
strong government authority, or good government authority. 
Parts of Pakistan, the government has not held strong sway. And 
it's a matter of exerting government authority, bringing these 
people into the nation on both sides.
    Senator Casey. And, finally--this will be the last, because 
I know we're out of time in a minute or so--how would you 
assess the relationship now between the Karzai government--in 
particular, President Karzai--and the Pakistani political 
leadership, especially the personal or one-to-one relationship 
between Mr. Karzai and General Musharraf?
    Mr. Boucher. You know, the relationship is rocky. I suppose 
that's historically the way it's been between Pakistan and 
Afghanistan. But, in practical terms, we see more and more 
cooperation. And we've got good military cooperation, with our 
assistance. They've got national security meetings and foreign 
affairs meetings. I think they're having a joint economic 
committee meeting very soon. We've seen them start to work 
together on the refugee problems, refugee returns. We are 
trying to facilitate and encourage every bit of cooperation 
between the two of them. They need to work together on the 
border areas, on the border crossings, a lot of those things. 
And we spend a lot of effort bringing them together and say, 
``Hey, guys, we've got to sit down and do this together,'' 
because it's the only way any of us are going to beat the 
problem.
    Senator Casey. Thank you.
    The Chairman. Thank you very much, Mr. Secretary.
    I'm going to yield to my friend Senator Lugar. He has an 
additional request, or----
    Senator Lugar. Mr. Chairman, I just wanted to amend your 
original suggestion for a classified briefing on the drug 
problem to include this question of buy-out, as opposed to 
eradication. And I raise it from the standpoint, as you pointed 
out, Secretary Boucher, that maybe a third of the economy--some 
have estimated more of that--is involved in the drug situation. 
But it's an international problem, which you've also pointed 
out, with a large percentage--I think you said 90 percent or 
something of that sort--of the opium in the world, coming out 
of this--so that there are real questions, it seems to me, 
given the cost of both methods, as well as the future, to 
consider this very carefully. And I'd just like, during this 
classified briefing, to have the backup reasoning that has led 
to the administration's views on this, so that we can, in our 
oversight way, have an opportunity to look at it.
    Mr. Boucher. Certainly, sir. Frankly, let me say, if we 
can, I'd like to give you that in an unclassified form. We'll 
look at it and----
    Senator Lugar. Very well.
    Mr. Boucher [continuing]. We'll give you all the 
information, whatever----
    Senator Lugar. Unclassified would be----
    Mr. Boucher [continuing]. Is the best way----
    Senator Lugar [continuing]. Better still----
    Mr. Boucher [continuing]. To get it to you.
    Senator Lugar [continuing]. In one form or another.
    Mr. Boucher. Yeah.
    [The written information submitted by Mr. Boucher follows:]

    The Governments of Afghanistan, the United Kingdom, and the United 
States are all opposed to the legalization of opium in Afghanistan, as 
are the relevant technical agencies of the United Nations. While this 
idea does have surface appeal to some, legalization would be a severe 
mistake.
    In the first place, the licit opium market is not lucrative enough 
to entice Afghan farmers. The price difference between licit and 
illicit opium is so substantial that Afghan farmers would not quit the 
black market. To make up for the price difference, exorbitant subsidies 
would have to be offered, which would prove prohibitively expensive. 
Moreover, the Government of Afghanistan would be obligated to purchase 
opium stocks, resulting in the crops' exponential expansion as more 
farmers would grow in order to take advantage of a guaranteed source of 
income. Buying up existing poppy crops at licit market rates has been 
tried by the British in Afghanistan and faciled because it did not 
decrease cultivation. The Government of Afghanistan opposes buyouts 
because of the numerous complaints they received from legitimate 
farmers about the ``subsidy'' for law-breaking poppy farmers.
    Secondly, there is no legitimate world demand for legally produced 
opium from Afghanistan. According to the United Nations International 
Narcotics Control Board, world demand for opium-based medicines is 
fully met. World stockpiles are also sufficient to meet any conceivable 
future or increased demand.
    Nor would this scheme be feasible. Countries that produce licit 
opium have strict controls, sophisticated law enforcement, and 
licensing systmes--and still admit to significant illegal diversion. 
The lack of security in Afghanistan has led to the explosion of the 
current illicit poppy crop, so a licit industry that relies on legal 
controls could not work. Without safeguards, licit and illicit opium 
would be indistinguishable.
    Furthermore, history argues against this approach in Afghanistan. 
Lessons from India, Pakistan, Bolivia, and other countries show the 
often disastrous effects of legalizing drug production without the 
requisite market demand, or law enforcement and control mechanisms. 
Each of these countries attempted to regulate a legal trade in 
narcotics and, as a result, saw an increase in cultivation or 
significant diversion into the black market.
    Legalization also is ultimately counterproductive and dangerous--it 
would expand and entrench the drug trade, undermining efforts to bring 
security and sustainable economic development. This would benefit 
insurgent groups such as the Taliban, who profit from the trade, as 
well as criminals and corrupt government officials. Afghanistan would 
suffer from more violence, lawlessness, and corruption as a result of 
legalization, not less. Expanding opium cultivation would also come at 
the expense of important efforts to diversify Afghanistan's economy, 
making the country's welfare dangerously reliant on one commodity.
    Unfortunately, there are no shortcuts to fighting opium production 
in Afghanistan. In our full report, attached for your review, we 
examine the main arguments raised in favor of legalization as advocated 
by The Senlis Council, which has been quoted by mainstream media as an 
authority on this subject.

    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Thank you, Mr. Secretary.
    As General Jones and Ambassador Dobbins come forward, I'd 
like to--and I'd--oh, did you have a comment you wanted to 
make, closing? You're welcome----
    Mr. Boucher. I----
    The Chairman. Please. No, no, no. No, no, no. Please, I'm 
sorry. I didn't mean to cut you off. I thought you were anxious 
to leave. [Laughter.]
    Mr. Boucher. I'm anxious to leave, sir. I thank you. And I 
appreciate the discussion. And I've written down a lot of 
things that we're going to follow up on. So, I'm sure we'll 
continue the conversation at some later date.
    The Chairman. Yes. I didn't mean to cut you off, Mr. 
Secretary.
    Mr. Boucher. No, I'm----
    The Chairman. I'm sorry.
    Mr. Boucher. I'm happy to let the seats at the table go to 
others. [Laughter.]
    The Chairman. Thank you very much, Mr. Secretary.
    Well, I'd like to call General Jones and Ambassador 
Dobbins. And, as I do, I want to make a brief comment here 
before we begin this panel.
    I want to thank General Jones for his 40 years of 
exceptional service to this Nation, and at a time when we're 
hearing about mindboggling failures in leadership at Walter 
Reed, and with our VA system, it's an honor to have one of the 
Nation's best warriors and leaders with us today.
    But, you know, I find it mindboggling what's happening out 
at Walter Reed. I spent 7 months, on and off, out there as a 
patient. I spent almost--over--close to 2 months in the ICU 
unit there, and I found the care out there to be incredible, 
exceptional, not just for me, but for everybody that was 
around. So, I was stunned to learn what we did, what happened 
out there. And I--I'm going to speak a little more to this in a 
little bit, but I think the combination of contracting out, 
about the BRAC closing, the constant attempt to underestimate 
the cost of this war, has led to this deplorable condition.
    And there's a number of good ideas out there, but I'm going 
to warn my colleagues, I'm going to be introducing legislation 
that will deal with the privatization of military care, as well 
as moving in the direction to change some other bottom-line 
requirements. You know, at Walter Reed, the maintenance and 
repairs were farmed out to a private firm under a $120 million 
contract, and the contractor replaced 300 workers with 50. Now, 
maybe some of those 300 workers weren't needed, but I--can't 
tell me there's not a correlation between having 300 people 
dealing with these needs and 50 people dealing with the needs.
    And I also am going to move to prohibit the defense--the 
Department of Defense from being able to mandate medical care 
budget cuts, and also to require that managers have contact 
with their patients at least once a week to improve their 
training, and also to make that trauma brain injuries, so-
called TBI, is a presumptive condition for those coming back, 
seeking service, if they're in an area where there was serious 
exposure, as well as they have symptoms. As many as 10 percent 
of those serving in those countries have brain injuries. That's 
150,000 servicemembers.
    We also require wounded soldiers and marines to receive new 
uniforms. The idea--when I found out from folks back home that 
one of the patients could not--had to get their own uniforms, 
because they came back with a tattered uniform and didn't get a 
new uniform, I found that just absolutely mindboggling.
    There's a lot more to talk about, and I wish we had time to 
talk to General Jones, not about the specific condition at 
Walter Reed, but about, as a lifelong leader in the military, 
what some of the line officers think about what's going on. But 
that's a different subject.
    And I welcome you both.
    General Jones, why don't we begin with your testimony; 
Ambassador, then yours. And then what we'll do is move to 
questions. And I'd ask my two colleagues, maybe we could direct 
most of our questions initially to General Jones, if you have 
any for him, so he's able to make the--his appointment. And we 
thank you for being here. Thank you both. Mr. Ambassador, thank 
you.

   STATEMENT OF GEN JAMES L. JONES, JR., USMC (RET.), FORMER 
   COMMANDER, EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER 
                       EUROPE, McLEAN, VA

    General Jones. Mr. Chairman, Senator Lugar, thank you very 
much. Distinguished Senators, members of the committee, it's a 
pleasure to be back talking about an issue that I am passionate 
about, and that's our efforts in Afghanistan.
    I appear before you this morning in my capacity as a 
retired Marine four star, as of 1 February, and a former NATO 
Commander. My expertise, to the extent that I have any on this 
subject, has to do with my experiences more in NATO than as a 
U.S. commander. But I have been privileged to be involved with 
Afghanistan since NATO first started talking about it, in 2003, 
and was privileged to lead the formulation of NATO's plan, 
which has now been fully implemented and has resulted, in the 
fall of last year, of NATO moving into all five sectors of 
Afghanistan. As we divided them, the capital, the north, the 
west, the south, and then the east in a counterclockwise 
gradual expansion which reached its fruition and full 
completion last fall.
    One of the reasons that violence has gone up in 
Afghanistan, in my opinion, is that prior to NATO's full 
expansion, particularly to the southern region, there was 
virtually no presence in that region. When we were there, it 
was largely American coalition troops who were there for 
specific finite reasons; very kinetic, very short-term combat 
operations. And, as such, reconstruction and stability had not 
arrived to that southern part of the country, which is 
enormous, and it was, in fact, a safe haven for the disparate 
groups which perpetrate violence in Afghanistan, including the 
tribes, including the remnants of the warlords, including the 
Taliban, including the narcotraffickers and the like.
    With the arrival of NATO troops in the southern region in 
the summer of last year, in Operation Medusa, which was a--I 
think, a very defining moment, which answered the question, 
once and for all, whether NATO would fight in Afghanistan. We 
did, in fact, make a very positive statement which--and the 
opposition, suffered a tactical defeat of significant 
proportions. And I think that's why you see some of the numbers 
going up, because we just didn't have any reporting before.
    Having said that, I remain convinced that my previous 
testimony before this committee last year remains essentially 
valid, that the possibility of success in Afghanistan is still 
at our fingertips. But I would like to succinctly wrap up and 
make four or five points as to what I think needs to be done, 
what I would recommend needs to be done, and done a little bit 
better, in order to make sure that Afghanistan turns into the 
right direction.
    The first thing that I would mention, Mr. Chairman, is that 
we have over 60 countries that are involved, in some way, 
manner, shape, or form, in Afghanistan. Thirty-seven countries 
are troop contributing nations, including 26 countries of the 
North Atlantic Treaty Organization. So, there's a huge amount 
of international effort going on in Afghanistan.
    We know what the good things are. We know we've had 
tremendous national elections in 2004. We know that Afghanistan 
is generally stable in the north and west. We know that the 25 
Provincial Reconstruction Teams are the promise of the future 
for the people of Afghanistan and they're doing wonderful 
things. We know that the Afghan National Army represents a 
success story, as far as it's come, but we know that the army 
is not big enough, it needs to get bigger, and it needs to 
expand. Under the United States tutelage, the emergence of the 
Afghan National Army as an army that is representative of the 
people, and embraced by the people, and is doing good things, 
is to be celebrated.
    We know that Japan has led the demobilization, 
reintegration, and disarmament pillar of reconstruction, in 
quite a satisfactory way. We know that schools and roads and 
healthcare is more available to Afghans. We know that there's a 
tripartite council where NATO, Afghan authorities, Pakistani 
authorities meet, military forces meet, and military leaders 
meet on a regular basis. We know that President Karzai has 
formed a Policy Action Group, which helps to prioritize the 
reconstruction effort.
    Having said that, there are three or four things that I 
would suggest that are, as I've said before, on life support 
and need immediate attention by the international community. 
And may I say, Mr. Chairman, that one of the things I'm 
proudest of to be associated with is that this is an 
international problem. This isn't only the problem of the 
United States. When NATO moved into Afghanistan and took 
responsibility for stability and security, that is a very 
powerful statement by the international community. And so, the 
optimum word here is ``we,'' not ``we, the United States.'' We, 
the family of nations, have all the legitimacy, international 
legitimacy, that's required to do this mission, five separate 
United Nations Security Council resolutions, and the authority 
to justify what it is we do.
    So, what are these few things that are absolutely at the 
core? In my view, and it's been well articulated this morning, 
but narcotics is the Achilles heel of Afghanistan. It affects 
every aspect of that society. It fuels crime, it fuels 
corruption, and it's the economic engine for fueling the 
violence in Afghanistan.
    In my testimony, Mr. Chairman, I will not link violence in 
Afghanistan only to the Taliban. And I think one of the things 
that we have to be careful of is that we don't make the Taliban 
any taller than the Taliban is. The Taliban is a regional 
problem. It's not a national problem.
    But the failure of the international community to coalesce 
around the U.K. led campaign against narcotics is a matter of 
record. In my 3 years of regular visits to Afghanistan, I've 
seen very little progress; as a matter of fact, I've seen much 
more backsliding than anything else.
    To develop a cohesive campaign plan that is internationally 
supported by not just the United Kingdom, which is, I think, 
the problem. The United Kingdom raised its hand and said, ``We 
will lead this effort.'' What has happened is that nations have 
defaulted to the United Kingdom and suggested that they have to 
solve the whole thing. That's not the intent of the G-8 
agreements.
    So, narcotics, to me, is the No. 1 problem.
    No. 2, and a problem that has to be tackled at the same 
time, is judicial reform. This is an Italian-led commitment 
under the G-8 agreements. And it is also on life support. The 
average prosecutor in Afghanistan makes $65 a month. The 
average interpreter for the United Nations makes about $750 a 
month. There are a thousand prosecutors in Afghanistan, and the 
court system is not up to the task of prosecuting people, 
trying them, and then putting them away. Instead, what we see 
is a little bit of a revolving door. To be sure, there has been 
some progress made, but the really big fish, Mr. Chairman, as 
you've pointed out, are still out there and are still 
operating.
    So, I think if I were able to do anything, I would focus on 
narcotics, I would focus on judicial reform. And the third 
pillar I would focus on, which is a German-led pillar, is the 
adequacy of police forces. Trained, sufficient quantity, 
sufficient quality throughout the region so that if we do 
incentivize the farmers not to grow poppies, for example, there 
isn't a roving band of narcotraffickers that slits their throat 
at night for not doing that, or kidnaps their children, or 
makes them feel unsafe.
    So, those three pillars of the Accords need urgent 
attention if we're, in fact, going to deliver on the promise of 
Afghanistan.
    The good news, Mr. Chairman, is that all these things are 
there--60 countries on the ground, the United Nations is there, 
there is a U.N. high representative, who is the representative 
of the Secretary General. But what is lacking is, in my view, 
in Afghanistan, is that central authoritative figure that can, 
in fact, focus the international relief effort in a way that 
tackles the three or four things that absolutely have to be 
done. We, if you look back at Bosnia, remember Lord ``Paddy'' 
Ashdown, who was such a figure. When Paddy Ashdown spoke, the 
Bosnians, the Serbs, and the Croats listened. There is no Paddy 
Ashdown, that I've seen, at work in Kabul in Afghanistan. And I 
think that either a person or a group of people, whatever the 
solution is, that can bring discipline to the effort that we're 
bringing to Afghanistan, is necessary.
    And, finally, to pick up on Senator Casey's comments with 
regard to Pakistan and Afghanistan, that that relationship 
between those two heads of state absolutely has to be brought 
into a more coherence, so that Pakistan understands that what 
goes on in Afghanistan is vitally important to their own 
national interest, as well, because if we're not successful in 
Afghanistan, I personally believe that that problem will 
continue to grow, and that it will be a problem for Afghanistan 
in the future. So, the logic of these two countries working 
together to solve a common problem, to me, is inescapable.
    I left my job in NATO in December 2006, and the last real 
big meeting I had was with a senior military official from 
Pakistan. I showed him graphic evidence of what was happening 
across the border. And I listened to them respectfully about 
what they said their goals were. I believe them, that they mean 
to do what they say they're going to do, but at the rate that 
it was going when I left, it was clear that the problem wasn't 
going in the right direction.
    I think we'll know a lot more this spring about whether the 
Pakistani Government, on its side of the border, was able to do 
something. But I think this is one of the four or five things 
that have to be done.
    Mr. Chairman, I've summarized as quickly as I can, but I 
thank you very much for having me, and I apologize for not 
being able to stay as long as you might like today. And I'd be 
happy to be come back any other time you'd like.
    [The prepared statement of General Jones follows:]

    Prepared Statement of Gen. James L. Jones, USMC (Ret.), Former 
   Commander, European Command and Supreme Allied Commander Europe, 
                               McLean, VA

    Mr. Chairman, Senator Lugar, and members of the committee, I'd like 
to thank you for the opportunity to testify, and for having this 
hearing. It is a great privilege to be before the committee today--6 
months since last testifying as SACEUR, and just over a month since my 
retirement from the U.S. Marine Corps. Congress remains focused on 
NATO's ambitious undertaking in Afghanistan. This interest and the 
continued support of the United States for this mission are absolutely 
essential to its success.
    Today I will offer the committee some insights into both the ISAF 
mission, and the importance of sustaining NATO as it continues to 
perform valiantly in the execution of its mission, so vital to the 
future of Afghanistan. Since we last met, we have witnessed successes 
in the International Security Assistance Force's (ISAF) mission to 
establish security and stability. What remains unchanged is that ISAF 
is still NATO's most important and challenging mission.
    NATO's ``out of area'' operations are now at greater distances and 
more ambitious than ever before. There are over 50,000 soldiers 
deployed under NATO Command today on three different continents 
performing a wide variety of missions--from Baltic air policing to a 
15,000-man unit keeping a safe and secure environment in Kosovo. The 
NATO Response Force is arguably its most transformational operational 
capability, providing strategic Reserve Forces and operational Reserve 
Forces on standby. This brings me full circle to ISAF in Afghanistan.
    There are currently over 34,000 forces in ISAF--with 15,000 
soldiers, sailors, airmen, and marines from the United States under its 
command. The Alliance now has responsibility for ISAF operations 
throughout Afghanistan and works alongside an additional 11,500 U.S.-
led coalition forces of Operation ENDURING FREEDOM (OEF). The 25 
Provincial Reconstruction Teams (PRT) under ISAF are the leading edge 
of NATO's efforts for security and reconstruction, supported by 
military forces capable of providing necessary security and stability. 
ISAF's assumption of the entire security and stability mission in 
Afghanistan is testament to its growing capacity to engage in defense 
against common security challenges, including terrorism. What makes 
these reconstruction teams so effective is that they're empowered. PRT 
commanders, usually at the rank of lieutenant colonel, have the 
independent authority and funding to bring about immediate effects in 
the region by building a bridge, opening a school, digging a well, 
turning on electricity, paving a road, and giving a sense of comfort 
and reassurance in the hinterlands where the government will some day 
be able to get out there and replace the PRTs. As SACEUR I witnessed 
what PRTs can do and I continue to believe that one PRT of up to 100 
people are worth a battalion of 5,000 troops. Proactive engagement is 
always cheaper than reactive engagement. I would have rather had 100 
people dedicated to a certain thing every single day for 365 days, than 
10,000 troops for 60 days.
    While SACEUR, I observed NATO's civilian leadership spend a 
considerable amount of time working to sustain a unity of purpose for 
the men and women of the Alliance, along with 17 other troop 
contributing nations. This is a tough job, but essential to sustaining 
the role of NATO in Afghanistan, and in other areas of operation. The 
military forces deployed under NATO are a visible and effective 
demonstration of NATO's collective resolve to project security in 
unstable regions and to deter, disrupt, and defend against terrorism. 
ISAF continues to be a model of teamwork--a cooperation of comrades in 
arms working together to solve very difficult problems. I am confident 
that it will continue that way. In the months since the full transfer 
of authority to NATO last fall, opposing militant forces have tried to 
test NATO to see if we have the will and the capability to stand and 
fight. Operation MEDUSA not only defeated the insurgents near Kandahar, 
but helped establish the conditions for reconstruction and development 
activities that are moving the province forward.
    While ISAF is focused on establishing security and stability 
throughout the country, the international community's efforts in 
Afghanistan are based on five main pillars: Training the Afghan Army, 
training the police forces, disarmament of illegally armed groups, 
judicial reform, and counternarcotics. While SACEUR, I shared with many 
of you my belief that the ultimate success in Afghanistan depends not 
simply on military victories--it depends on the efforts of the 
international community and the Karzai government. They need to ensure 
military efforts are immediately followed up with the needed 
reconstruction and development activities in the short run, and success 
in the pillars of reform in the long run. Development and 
reconstruction activities will help meet expectations of the Afghan 
people who have demonstrated in two national elections, one for 
President, and one for Parliament, that they overwhelmingly understand 
this effort. Progress in education, agriculture, economic development, 
public services and health has to go hand in hand with providing a 
stable and secure environment. The Afghan authorities and ISAF are now 
focusing on the key tasks of ensuring that reconstruction and 
development can take place in accordance with the priorities identified 
by the local authorities themselves.
    The Afghan national army is about 30,000 strong and plays a pivotal 
role in the security of Afghanistan. The U.S. commitment to train an 
army of approximately 70,000 soldiers continues. NATO nations have been 
fielding NATO operational, mentor, and liaison teams. Currently, NATO 
has 15 such teams offered by troop contributing nations, with 7 of them 
completely fielded and 17 more remaining to be fielded. The more 
rapidly NATO can build a capable and sufficiently robust Afghan 
national army, the faster it will establish conditions for success.
    When I last testified in September, it was my judgment that much 
more needed to be done to train the police force, as well as provide 
adequate numbers, equipment, training, and pay, coupled with the need 
to fight against corruption. ISAF's contribution to the Afghan national 
police training remains within means and capabilities.
    Judicial reform is not a NATO task in Afghanistan, but it is so 
important to everything that's going on there. Judicial reform remains 
one of the key areas where a progress must be made, as the courts and 
prosecutorial capabilities of the state remain distrusted, overly 
corrupt, and resource starved. A major problem with judicial reform is 
the low pay of prosecutors, which makes them susceptible to corruption. 
I remember a meeting last year with the attorney general of 
Afghanistan, who told me that prosecutors' average pay was $65 a month. 
By comparison, an interpreter working for the United Nations makes 500 
Euros a month. A top Afghan judge earns less than $100 a month--less 
than the cost to rent an apartment in Kabul; less than what the Taliban 
pay locals to support their military operations. This situation cannot 
be allowed to stand.
    Finally, the problem that continues to worry me the most is 
narcotics. Afghanistan does not need to be a narco-state, but it is 
unfortunately well on its way. The parts of Afghanistan which are 
currently producing the largest poppy crops are not those that are 
traditionally known for the growth of such product. The need to find 
the right means to ensure that farmers can economically grow and sell 
legal produce, in addition to developing an overarching and 
understandable way ahead in the overall fight against narcotics, is 
vital. Ninety percent of Afghan narcotics are sold in the European 
markets. The money returns to Afghanistan and fuels the IEDs and 
terrorism that kills and wounds our soldiers.
    There remains a need for closer cooperation and coordination 
between NATO and the Government of Afghanistan, as well as those 
nations, governmental and nongovernmental organizations, involved in 
security sector reform. President Karzai has recognized this and has 
sought to create a policy action group to made decisions and coordinate 
across the spectrum of reform. This body is Afghan-led and chaired by 
the President. The policy action group is designed to reach down to the 
provincial district and community level in order to provide integrated 
programs that implement policy and serve the interests of the Afghan 
people. I believe that this policy action group has a good chance of 
succeeding and will contribute to the enhanced cohesion and 
coordination that thus far has been absent in the delivery of 
international relief.
    The evidence is clear--over the past 5 years there has been solid 
progress throughout Afghanistan. However, the efforts of the 
international community and those of NATO need to be increased in order 
to consolidate and expand the gains made there to ensure long-term 
success. NATO's leadership role, and that of the United States, remains 
as important as ever. With the continued support of the United States 
and of this Congress, I believe NATO will ultimately succeed in 
solidifying the conditions necessary for sustained peace and prosperity 
for the people of Afghanistan.
    Mr. Chairman, this concludes my remarks and I'd be happy to answer 
any questions.

    The Chairman. We'll take you up on that, General. We'll 
still try to get some questions in.
    Jim, the floor is yours. And thank you for being here, man.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
SECURITY & DEFENSE POLICY CENTER, RAND CORPORATION, ARLINGTON, 
                               VA

    Ambassador Dobbins. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee. I'll try to summarize quickly so we 
can get to some questions for General Jones.
    I think that one can pin responsibility for the current 
difficulties in Afghanistan on two sources. They are, sort of, 
sins of omission and sins of commission. The sins of omission 
were essentially our failure, back in 2002 and 2003, to move 
quickly when we had a benign environment, with the Taliban on 
the run and an al-Qaeda largely dispersed, to provide security 
and begin the process of reconstruction. The amounts of money 
that are now being spent and being requested for Afghanistan, 
for economic assistance, are 20 times more than the amounts 
that I had in early 2002 to begin that process--20 times more 
on an annual basis. And the number of troops we have there now 
is four times more--more than four times more than we had for 
that first year.
    This is--I've overseen post-conflict reconstruction in five 
societies, and I've studied them, going back to 1960--this is 
the only time on record in which we spent more money and had 
more troops 5 years after we started than we did the first year 
or two. And I think this is indicative of this early failure to 
seize the golden hour when we could have done so much more.
    But if that's the sins of omission, I think the sins of 
commission largely lie, not in Afghanistan or in Washington, 
but in Pakistan. This is not an insurgency led by a 
discontented population in Afghanistan, with an abusive or an 
ineffective government. It's true that the population in the 
affected areas don't have a lot of reasons to take risks for 
their government, or place much confidence in their government. 
But the real source of this conflict lies in Pakistan. The 
insurgency is organized in Pakistan, it's led in Pakistan, it's 
recruited in Pakistan, it's trained in Pakistan, it's funded 
from Pakistan, and it operates into Afghanistan.
    And I think that the question, of course, comes as to what 
to do about that. How can we grapple with that phenomenon?
    I don't think that punitive actions with respect to 
Pakistan are likely to be productive. We tried that through the 
1990s. We made them international pariahs, and everything just 
got worse. They proliferated, they sold nuclear secrets to 
other countries, and they supported terrorist movements. So, I 
think that we need a positive agenda with respect to Pakistan.
    I'm not sure that requiring the administration to certify 
that Pakistan is fully cooperating as a condition for United 
States assistance is particularly productive. Frankly and 
candidly, it simply requires the administration to come up here 
and lie to you, and you to accept those lies, because neither 
you nor they are actually going to move toward punitive steps 
toward Pakistan.
    And what we need, in fact, is a more candid discussion of 
what's going on in Pakistan. We need to raise the international 
visibility of what's going on in Pakistan. And we're not going 
to be able to do that if it gets linked with punitive steps 
which everybody is--recognizes are likely to be 
counterproductive.
    So, I hope--I mean, I think that we need--we need United 
States officials to say in public what they've--what they're--
freely say in private about what--the links between elements of 
the Pakistani Government and Taliban activities, the levels of 
Taliban activities in the country, and the incentives that 
Pakistan has, to be not fully cooperative. And I'd be glad to 
go into some of that in response to questions.
    As I said, I don't think we should be looking at punitive 
things. I've--in my written testimony, I've suggested four 
things that we should do with respect to Pakistan. One is to 
promote settlement of the Kashmir issue. The second is to 
address the economic and social needs of the Pashtun 
populations on both sides of the border. There's no sense--
there's not much to be gained from winning the hearts and minds 
of all the Pashtuns in Afghanistan if we haven't done the same 
with the Pashtuns in Pakistan. There are more Pashtuns in 
Pakistan than there are in Afghanistan, a lot more. And unless 
their aspirations and their grievances are addressed, we're 
going to have a permanent problem.
    Third, I think we need to encourage the Afghan and 
Pakistani Governments to establish an agreed border regime. 
Afghanistan doesn't recognize that border. It's insisting that 
Pakistan assert better control over a border that it refuses to 
recognize.
    And, finally, I think we need to encourage Pakistan to move 
toward--back toward civilian rule. Now, that's not a 
particularly punitive list of things to do. Indeed, most of 
them are things that the Pakistani Government would like us to 
do.
    Finally, just a word on the drug problem, which has been 
much discussed this morning. I think that U.S. officials, and, 
indeed, Members of Congress, are faced with, sort of, two 
conflicting imperatives here. One is the Hippocratic imperative 
to ``Do no harm,'' and the other is the political imperative to 
``Don't just stand there, do something.'' And as we know, the 
latter of those imperatives tends to be the operative one, in 
many cases.
    The administration's five-pillar plan, which includes 
eradication, interdiction, alternative development, judicial 
reform, and public information, does strike me as a 
bureaucratic response to the imperative of just--``Don't just 
stand there, do something,'' rather than a well-thought- out 
articulated strategy which emphasizes some things and doesn't 
emphasize--and doesn't emphasize others.
    I think that drug strategy needs to be put in the context 
of a broader national strategy, the objective of which is to 
build support for the Afghan Government and allow it to assume 
greater control over much of the country.
    It is true that probably the insurgency gains a certain 
amount of revenue from drug production, but the fact is that 
most of the drugs are being produced and trafficked in areas of 
the country that the government controls, not the Taliban; and, 
therefore, people in the government are getting, by far, the 
largest rakeoff from the drug production, not the Taliban. This 
suggests to me a strategy that would give principal emphasis to 
interdiction and judicial reform, rather than the other 
elements.
    Now, finally, as regards a public information campaign, 
this is going to be a lot more effective if it comes from the 
Afghan clergy than if it comes from a government known to be 
riddled with drug corruption or a bunch of foreigners whose 
motives are suspect. The problem, of course, in Afghanistan is 
that, in Afghanistan, as in many other countries, including 
most of our democratic West European countries, the clergy 
depends on public revenue for support.
    Every village in Afghanistan has a school and a mosque. 
They don't have any government officials at all. There are no 
government officials, not even police, at the village level. 
But they all do have a mosque. Unfortunately, supporting the 
Afghan clergy is an area that no Western donor has been 
prepared to take up. And I do believe that we need to find ways 
of allowing the Afghan Government to better fund this aspect of 
its responsibilities, because I think this is one of the most 
important sources of potential support for that government in 
that country
    Thank you.
    [The prepared statement of Ambassador Dobbins follows:]

   Prepared Statement of Hon. James Dobbins, Director, International 
  Security and Defense Policy Center, RAND Corporation, Arlington, VA

    The resurgence of civil war in Afghanistan can be attributed to two 
fundamental causes. One is the failure of the United States, the Karzai 
administration, and the rest of the international community to take 
advantage of the lull following the collapse of the Taliban regime in 
late 2001 to strengthen the new Afghan Government. The second cause is 
the fragmentation of the international coalition that the United States 
put together to stabilize and reconstruct Afghanistan.
    Afghanistan has experienced civil war since the late 1970s. Unlike 
the recent or current conflicts in Yugoslavia and Iraq, which arose 
principally from hostilities among their constituent nationalities, 
Afghanistan's war has largely been the product of external 
interventions. In the 1980s, the Soviet Union and the United States 
used Afghanistan as a battleground in their global competition. In the 
1990s, Pakistan, India, Russia, and Iran supported competing Afghan 
factions in order to protect and extend their influences in the region. 
Relations among Afghanistan's various ethnic, religious, and linguistic 
communities became much more difficult, but these tensions were 
primarily the result of civil war rather than the cause.
    Many Americans believe that in the aftermath of the 9/11 attacks, 
the Bush administration formed a multinational coalition that drove the 
Taliban from power. It would be more accurate, however, to say that the 
United States joined Russia, India, Iran, and the Northern Alliance in 
an existing coalition that had been fighting the Taliban for half a 
decade. With the addition of American airpower and the removal of 
Pakistani support for their opponent, the coalition prevailed. As a 
result, Northern Alliance troops, which had been equipped, trained, and 
financed by Russia, India, and Iran, occupied most of the country.
    If credit for America's military victory in Afghanistan needs to be 
shared with this unlikely coalition, so must credit for America's 
diplomatic achievement in rapidly installing a broadly based successor 
regime.
    When named as the American envoy to the Afghan opposition in 
October 2001, I concluded that the United States would not succeed in 
halting civil war in Afghanistan without the support of the governments 
responsible for that war in the first place. This belief stemmed from 
my experience a few years earlier in the Balkans, in particular from 
observing Richard Holbrook's success in orchestrating the Dayton 
negotiations that ended the civil war in Bosnia. That war had been the 
product of Serbian and Croatian ambitions. Presidents Milosevic and 
Tudjman had been personally guilty of the genocide we were trying to 
stop. Only by engaging them, bringing them to the conference table, and 
making them partners in the peace process were we able, however, to 
persuade all the Bosnian factions to lay down their arms. I believed 
that a similar approach was needed to achieve a comparable result in 
Afghanistan.
    By November we were working with the United Nations to bring all 
factions of the Afghan opposition together in Bonn, Germany, where we 
hoped they would agree upon an interim constitution and the membership 
of a new government. The U.N.'s initial inclination had been to 
sequester the Afghan representatives in order to prevent any foreign 
government from exerting a malign influence over their deliberations.
    I made the opposite case that only by bringing states like Iran, 
Pakistan, India, and Russia into the process would we have some chance 
of reaching a consensus. I argued that Afghans would only agree if they 
were subjected to convergent pressures by their foreign sponsors. 
Incidentally, this was exactly how it worked out: Each of those 
governments, and particularly Russia and Iran, played positive and 
essential roles in forging the compromises upon which the Afghans 
ultimately agreed. Pakistan was also present at the Bonn Conference, 
but its role was uncomfortable due to the presence of its former 
adversaries. Nevertheless, Pakistan's acquiescence in the process and 
support for the result was essential for the consensus' durability.
    In the aftermath of this collective achievement, the United States 
and the rest of the international community had a golden occasion to 
help Afghans build an effective government capable of providing its 
population with the most basic public services. Al-Qaeda was smashed, 
and its remaining members were forced into hiding. The Taliban was 
discredited in Afghanistan and dispersed in Pakistan. Neither was 
capable of posing an immediate threat to the new regime in Kabul.
    We failed to seize that opportunity. During those early years, U.S. 
and international assistance was minimal. While blame for that 
negligence must be widely shared, the failure principally reflected the 
American administrations early aversion to nation-building. Well into 
2003 the administration was quite vocal in touting the merits of its 
``low profile, small footprint'' alternative to the more robust nation-
building efforts that the Clinton administration had led in Bosnia and 
Kosovo. Many felt that generous international assistance had made those 
Balkan countries dependent upon foreign funding and foreign troops, 
something we were going to avoid in Afghanistan and Iraq.
    In pursuit of this narrow vision of nation-building, the United 
States initially sought to minimize the size, geographical scope, and 
functions of the International Security Assistance Force (ISAF). 
Washington rejected pleas from Karzai and the United Nations to deploy 
international peacekeepers outside Kabul. It opposed any role for NATO 
in Afghanistan. It also refused to assign peacekeeping functions to 
American forces. Security for the Afghan population was to remain the 
responsibility of regional warlords until a new national army could be 
recruited, trained, and deployed, a process which would have taken 
years to complete.
    Economic assistance to Afghanistan was also commensurately low. In 
the first year following the collapse of the Taliban, the United States 
committed approximately $500 million in reconstruction aid to 
Afghanistan. Compare that figure to the $18 billion in economic 
assistance the administration requested for Iraq, a country of 
comparable size, greater wealth, and less damage in 2003. For the first 
2 years after the fall of the Taliban, the average Afghan received 
approximately $50 per year in foreign aid. By contrast, the average 
Kosovar received 10 times more than that over the same period of time 
and the average Bosnian received 12 times more assistance.
    If there is any lesson to be drawn from the Afghan experiment with 
frugal nation-building, it is ``low input, low output.'' If one applies 
low levels of military manpower and economic assistance to post 
conflict reconstruction, one can expect to see low levels of public 
security and economic growth.
    As indicated in the chart below, drawn from a RAND study (The 
U.N.'s Role in Nation Building: From the Congo to Iraq, RAND, 2005), 
Afghanistan has received the least amount of resources out of any major 
American-led, nation-building operation over the last 60 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Experience has shown that in major combat, it is possible to 
substitute firepower and technology for manpower, enabling smaller, 
more agile forces to rapidly prevail over much larger, less advanced 
adversaries. Experience has also shown, however, that in stabilization 
and reconstruction operations, there is no substitute for manpower, 
money, and time. By 2004, the administration began to recognize these 
realities and to adjust its aid and military manning levels 
accordingly: U.S. assistance and troop levels climbed steeply, NATO was 
invited to take over the ISAF mission, and international peacekeepers 
were finally dispatched to the provinces.
    Two vital years had been lost, however--years during which little 
progress had been made in extending effective governance to the 
countryside. As a result, by the time the threat of civil war 
reemerged, the population in the affected areas had been given little 
incentive to risk their lives for a government that could neither 
protect them nor advance their material well-being.
    This history explains why antiregime insurgents have found local 
populations receptive to their efforts to overturn the Karzai regime 
and expel the international presence, but it does not explain why this 
threat has reemerged. The current insurgency in Afghanistan does not 
arise from deep-seated opposition among large elements of the Afghan 
population toward their government. Instead, this insurgency has been 
raised by residents of Pakistan, some of whom are refugees from 
Afghanistan, others of whom are native Pakistanis.
    For the tens of millions of Pashtun tribesmen on both sides of the 
current border, this distinction is of little importance. This is a 
Pashtun insurgency. I don't mean to suggest that all Pashtuns are 
insurgents, simply that all insurgents are Pashtuns. The insurgency is 
organized, funded, trained and directed from Pakistan, where most 
Pashtuns live, and where most Pashtuns have always lived. Pashtuns 
generally do not recognize the current border between the two countries 
as legitimate. They believe themselves to represent a majority of the 
Afghan population, and therefore, they claim a predominant role in its 
government.
    The degree of official Pakistani complicity in this insurgency is a 
matter of some controversy. In private, knowledgeable United States, 
NATO, Afghan, and United Nations officials are nearly unanimous in 
asserting that the Pakistani intelligence service continues to 
collaborate with the Taliban and other insurgent groups operating out 
of its border regions against Afghanistan. For its part, the Pakistani 
Government, at the highest levels, denies any official sanction for 
these activities, suggesting that, at most, these reports reflect the 
activity of former members of its intelligence service acting 
independently and against government policy.
    The U.S. administration has complained loudly about Iranian support 
for sectarian violence in Iraq. At this point, lacking access to the 
intelligence data, it is difficult to fully assess the degree of 
official Iranian support for civil war in Iraq, or official Pakistani 
support for civil war in Afghanistan. What seems indisputably clear, 
however, is that Pakistani citizens, residents, money, and territory 
are playing a much greater role in the Afghan civil war than are 
Iranian citizens, residents, money, or territory in the Iraqi civil 
war.
    The RAND Corporation has conducted several studies on nation-
building and counterinsurgency drawing on dozens of American and non-
American case studies over the past century. One conclusion reached, 
highlights the near impossibility of putting together broken societies 
without the support of neighboring states, and of suppressing well-
established insurgencies that enjoy external support and neighboring 
sanctuary. The validity of this lesson is evident today both in Iraq 
and Afghanistan.
    It is clear that Pakistan has both geopolitical and domestic 
political incentives for destabilizing its neighbor. Geopolitically, 
Pakistan fears an independent Afghan state aligned with India. 
Domestically, Pakistani elites would prefer to see Pashtun ambitions 
externalized, in the pursuit of power in Afghanistan, rather than 
turned inward, in the pursuit of greater autonomy, or even independence 
for Pashtunistan. Even if these incentives do not lead Pakistani 
officials to foment civil war in Afghanistan, they may diminish their 
commitment to helping suppress it. The United States and the rest of 
the international community need to offset these incentives to 
destabilize Afghanistan with a greater array of incentives and 
disincentive designed to lead Pakistan to assert control over its own 
territory and population and prevent either from being used against 
their neighbor.
    Often one hears that the decision to invade Iraq in 2003 diverted 
American manpower and money for Afghanistan. This may be true. But a 
more serious charge is that the war in Iraq has diverted American 
attention from the real central front in this war, which is neither in 
Iraq or Afghanistan, but in Pakistan. Al-Qaeda, after all, is 
headquartered in Pakistan. The Taliban is operating out of Pakistan, as 
are several other insurgent and terrorist groups seeking to expel 
international forces from Afghanistan. It was Pakistan that assisted 
the North Korean and Iranian nuclear programs. Potential terrorists in 
Western societies still travel to Pakistan for inspiration, guidance, 
support, and direction.
    Yet if Pakistan is the central front in the war on terror, it is 
not one susceptible to a military response. We are not going to bomb 
Islamabad or invade Waziristan. An increase in U.S. military manpower 
and money for Afghanistan may be needed to contain the renewed 
insurgency and prevent the Karzai government from being overthrown. But 
the U.S. and NATO troops are likely to be required indefinitely as long 
as the Taliban and the other insurgent groups are able to recruit, 
train, raise funds, and organize their operations in Pakistan.
    Afghanistan has never been a self-sufficient state, and it probably 
never will be. It is simply too poor to be able to provide security and 
effective governance to its large and dispersed population. So unless 
the Pakistani Government can be persuaded to abandon its relationship 
with extremist elements within its society, halt its support for 
terrorism, provide its youth an educational alternative to 
fundamentalist madrasas, extend effective governance into its border 
provinces, and curtail their use by insurgent movements, the United 
States and its allies are going to be forced to patrol Afghanistan's 
Southeast Frontier indefinitely, just as Great Britain was compelled to 
conduct a counterinsurgency campaign along the other side of that same 
frontier throughout the 19th century.
    As I have noted, Pakistan is not a problem susceptible to a 
military solution. Therefore, other sources of influence will need to 
be used. First the United States should intensify quiet efforts to 
encourage both India and Pakistan to resolve their differences over 
Kashmir, that dispute being the root cause of radicalization in 
Pakistani society and policy. Second, we need to address the economic 
and social needs of the Pashtun populations on both sides of the 
border, not just in Afghanistan. There is only limited benefit in 
winning the hearts and minds of Pashtuns resident in Afghanistan, if 
the larger number of Pashtuns living in Pakistan remain hostile and 
ungoverned. Third, we need to encourage both the Afghan and Pakistani 
Governments to establish an agreed border regime and legitimize the 
current frontier. And finally, the United States should encourage 
Pakistan to move back toward civilian rule via free elections. 
Fundamentalist parties have never fared well in such elections in 
Pakistan, and are unlikely to do so in the future. It seems ironic that 
the United States has pushed for democratization in Iraq, Palestine, 
and Lebanon, all places where the result was likely to intensify 
sectarian conflict, but has largely failed to do so in Pakistan, where 
the opposite result is more likely.
    American efforts alone, no matter how intense and skillful, will 
not be sufficient to achieve any of these objectives. Washington, 
therefore, needs to raise the profile of the Pakistan problem 
internationally, in order to secure a much wider array of pressures 
upon and of assistance to Pakistan in undertaking these 
transformations.
    At present NATO is manning the Afghan frontier, but doing nothing 
to address the threat emerging from its other side. This is akin to 
NATO's guarding the Fulda Gap throughout the cold war, but have no 
discussions about how to deal with the Soviet Union. In fact, 
consultations on the Soviet Union occupied 90 percent of every NATO 
ministerial and summit for 40 years. Its time consultations on Pakistan 
occupied in a similarly central place in the transatlantic dialog.
    The recent announcement that the administration intends to increase 
its troop and financial commitment to Afghanistan should be welcomed. 
These steps come 5 years late, but perhaps not too late. The Afghan 
people desperately want peace, and they continue to hope that their 
freely elected government, the United States, and NATO can bring it to 
them. We continue to be welcome in Afghanistan in a way we are not in 
Iraq. But public support for Karzai, his government, and our presence 
is diminishing. It is to be hoped that these additional commitments can 
reverse, or at least slow this negative trend. The more American money 
and manpower is committed to Afghanistan, however, the more important 
it becomes to address the principal source of the ongoing civil war, 
which remains, as it has for most of the past 20 years, largely 
external, and in present circumstances, largely in Pakistan.
    The continuing growth of opium production and drug trafficking in 
Afghanistan represents a particularly frustrating challenge. U.S. 
officials are beset by two conflicting imperatives. One is the 
Hippocratic requirement to ``do no harm,'' i.e., don't do anything that 
actually makes the situation worst. The second is the political 
requirement, familiar to Members of Congress as it is to administration 
officials, to ``don't just stand there, do something!'' Unfortunately, 
the latter is usually the more compelling imperative.
    The administrations ``five pillar'' plan, for dealing with the 
issue, encompassing interdiction, eradication, alternative livelihood 
development, judicial reform, and public information, looks at first 
glance to be more a bureaucratic response to pressures, including 
congressional pressures, to be seen doing something rather than a 
carefully thought through strategy. Certainly these efforts seem to 
have been entirely ineffective in reducing drug production, while they 
have, reportedly, antagonized significant elements of the population to 
no good purpose.
    I would suggest the need to put counternarcotics firmly within a 
broader strategy designed to defeat the insurgency and strengthen the 
Afghan Government's support within the population. That strategy needs 
to be based upon a careful examination of both the economics and 
politics of the drug trade. The most important measures of success 
should not be increased seizures, or reduced poppy production, neither 
of which is likely to have any measurable impact upon drug consumption 
in Western Europe, where most of this product goes. Rather, the 
objectives should be to reduce the flow of drug money into the hands of 
corrupt government officials and insurgent groups. Of the two, 
incidentally, it seems almost certain that much more of this money is 
going to corrupt officials than insurgents, since the former control 
much more of the territory and transit routes involved.
    This suggests to me a strategy that would give principal emphasis 
to interdiction and judicial reform, while eschewing eradication and 
promoting alternate development only once genuinely viable alternatives 
can be offered.
    As to a public information campaign, this will be more credibly 
conducted by local religious leaders than by a government known to be 
riddled with drug corruption or foreigners whose motives are suspect. 
In Afghanistan, the clergy is, in principal, publicly funded, as is the 
case in many of our most democratic West European allies. 
Unfortunately, this is one area of Afghan Government activity that 
international donors have been least inclined to fund. Finding ways to 
allow the Afghan Government to better fund not just the village schools 
but the village mosques, could well be one of the most effective things 
we could do to delegitimize drug production, and increase public 
support for the current regime.

    The Chairman. Thank you very much.
    We have only about 13 minutes left, and what I'm going to 
suggest, since General Jones has to leave in 13 minutes, and 
we're going to get a chance to speak to the Ambassador, is, 
each Senator get one question, and one question alone, and 
limited to no speech, just a straightforward question. 
Otherwise, I'll take my 7 minutes and no one will get any 
chance to ask anything. OK? So, let's do that.
    And I'll begin by asking you, General Jones--no mention has 
been--no--the phrase ``al-Qaeda'' has not been raised by any 
witness thus far. How big a problem is it? And, if you had the 
authority from the Pakistani Government, could NATO forces go 
in and do damage in the western province, to al-Qaeda?
    General Jones. Senator, the reason that al-Qaeda, in my 
view, doesn't get mentioned too much is that the al-Qaeda 
portion of the problem is still, in my view, very much 
manageable. What is come back to the fore is the Taliban. In 
fact, on the Pakistani side of the border, they have been 
fairly direct at their efforts against the al-Qaeda. It's the 
Taliban that we're asking them to do the same to. So, on both 
sides of the border, the al-Qaeda has a tough time. It's not 
the same with regard to the Taliban.
    With regard to NATO and the western provinces of Pakistan, 
NATO's mandate would have to be adjusted to have NATO to do 
that.
    The Chairman. Assume it did. My question is, Does the 
capacity exist, if it was adjusted?
    General Jones. I think some of the countries in NATO 
certainly have the capacity, but it would be, with the United 
States, it would be they could do--they could do some thing. If 
you had the agreements and if you solved the problem with 
caveats and all of----
    The Chairman. Thank you.
    General Jones [continuing]. That. But the ability, the 
capability is there in NATO.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Mr. Chairman--General Jones, yesterday I 
heard a discussion with Lord Robertson about his experiences in 
Bosnia. He made the comment, with regard to Afghanistan, that 
there is not a contact group in Afghanistan. You were, sort of, 
onto that general idea, mentioning Paddy Ashdown, a high 
commissioner of some central control. Is the contact group idea 
a good one, or are there so many nations that the idea, at 
least that was useful in Bosnia, would not work in Afghanistan?
    General Jones. I think it could work, Senator. I think that 
despite some of the many good things that are being done, what 
is lacking is the ability to focus the energies and the 
resources in certain areas, where we know you have to do 
something. And so, anything that would be--any group that--or 
person that could be created to--with the authority to bring 
about that kind of emphasis, I think, is what's needed.
    The current structure of the U.N. high representative and 
the overlapping amalgamation of organizations like the European 
Union, NATO, the United Nations, and disparate groups of NGOs, 
having this loose relationship is not bringing about the 
focused effort that I think needs to be done in certain key 
areas. I don't want to overstate this, because they're doing a 
lot of good, but the four or five things that I mentioned, I 
think, are really critical to tackle.
    Senator Lugar. So, in addition to money, we really need 
reorganization----
    General Jones. Exactly.
    Senator Lugar [continuing]. And focus----
    General Jones. Exactly.
    Senator Lugar [continuing]. Somebody in charge.
    General Jones. And, to the extent that it's good news is--
the potential is there. I mean, it's on the ground. It's a 
question of shaping it in a way where the international 
community agrees that, ``Look, we have to get after this 
narcotics thing, because it's going to eat Afghanistan from the 
inside out if we don't.'' I think that's clear.
    The Chairman. Senator Obama.
    Senator Obama. General, the--thanks for the very useful 
testimony. I want to focus on where both you ended up and 
Ambassador Dobbins, as well, and that's on the issue of 
Pakistan. Given your history there, your relationship with both 
the Pakistani military on the ground, as well as their 
government, can you give me a sense of what their strategic 
objectives are and what we can do to encourage them to be more 
aggressive or more cooperative in the efforts? I tend to agree 
with the Ambassador's point, that if we pretend that we're 
going to do things here that we're not going to do, that's not 
particularly effective, that sanctions may not be particularly 
effective. On the other hand, we need to encourage a different 
approach on their part. Any thoughts on that?
    General Jones. Well, I think we have to find a way to 
scratch the itches on both sides of the border in a way that 
makes sense. Our NATO involvement with Pakistan is an emerging 
one. It didn't take place until NATO took over the east, as 
well, and the United States and coalition forces came under the 
NATO mandate. And so, our military-to-military discussions with 
them are on the ascendancy. The relationship is evolving. But 
clearly there's a lot at stake, and clearly the Secretary 
General of NATO understands that if, in fact, we cannot find 
the right ways to bring about the resolutions to the problem 
that we see on the border, that--and if Pakistan is judged not 
to be doing enough--then the full weight--political weight of 
the 26-nation alliance, plus all the countries that are in 
Afghanistan, is going--will be felt; and they should be felt, 
because this is something that critically has to be tackled.
    The Ambassador is much more of an expert on the Pakistani 
side of the border than I am, because of my recency, in terms 
of coming to that problem. But I must say that, in my meetings, 
all the right words were spoken by the Pakistani military. And 
so, you know, being from Missouri, literally, I think it's fair 
to say that, by springtime, we will have a sense of whether, 
over the winter, we've seen a change or not.
    The Chairman. Senator Corker.
    Senator Corker. I'll pass for the time allotted and wait to 
ask the Ambassador.
    The Chairman. That's very kind.
    Senator Corker. Thank you.
    The Chairman. Senator Casey.
    Senator Casey. Yes; thank you both for your testimony and 
your presence here.
    General, just one quick question. You've expressed the view 
that a lot of people have, I guess, not just in the context of 
Afghanistan, but in other places in the world, that any kind of 
military effort is only part of the solution, and that 
reconstruction and development activities have to move forward.
    Where do you think we are on that score, in terms of--if 
you view that as a recommendation that you would make, to 
accelerate or to ensure that we have both reconstruction and 
development activities at a level they should be--how do you 
assess that today, in light of the President's budget or in 
light of this administration's policies on both reconstruction 
and development?
    General Jones. Senator, I think the way I would answer that 
question is to say that we do have the weight and commitment of 
over 60 countries--about 60 countries, in Afghanistan, which is 
impressive. So, there is a lot of money being spent. My 
observation is that what I would think would be a good thing to 
do is to have more focus on how it's being spent, and to make 
sure that we tackle the three or four things that really have 
to be done in order to turn that country around. And those were 
the pillars that I was talking about in my introduction.
    So, it's a little bit like the question of, Do you have 
enough troops? My view in Afghanistan is that the commanders 
have asked for a little bit more, but it's not astronomical. 
But it's what you do with those troops that's important. And if 
you have enough money, then it's what you do with the money 
that's important. And some of that money is not being spent in 
the right directions, and it needs to be focused. And that's my 
message.
    Senator Casey. Thank you.
    The Chairman. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And, General Jones, good to see you again.
    General Jones. Senator.
    Senator Webb. I'd like to ask you a question that actually 
is a little bit of a follow-on from the Armed Services 
Committee hearing the other day. I had to leave before I was 
able to ask it to you there. But it dovetails in with what 
you're saying here.
    I am wondering about your judgment with respect to this 
recent increase in insurgent activity or military activity on 
the other side. Are we actually--or to what extent are we able 
to measure how much of that renewed activity is a result of the 
squeezing of the drug lords, the--this attempt to reduce opium 
growing, and the resistance from that, as opposed to 
politically?
    General Jones. Senator, I think the resurgence in activity, 
or the heightened activity, has more to do with the fact that 
NATO expansion in the south took place in the fall of last 
year. Prior to that expansion taking place, which was about 
9,000 NATO troops from about a half a dozen countries, there 
was no reconstruction in the south, there was no permanent 
presence of large-scale troops to bring about security and 
stability. The south was largely a safe haven for not only the 
drug cartels, but the Taliban, the disparate groups, the 
rampant corruption and crime, no governance, and not much to 
show in the way of reconstruction. With the arrival of those 8- 
or 9,000 troops, in Operation Medusa, that was the test by the 
opposition to see if NATO was going to fight. They learned a 
lesson and they suffered a military defeat of some 
significance.
    But since we're now in--we have now disturbed the hornet's 
nest. The resultant increases are largely due to the fact that 
we weren't there before. So, you have more data.
    But I think the NATO forces have acquitted themselves well. 
I will be interested to see, for all this talk about the spring 
offensive, exactly what happens there. We've always had 
something, but we'll just have to wait and see how it 
materializes.
    But I do think that we're close with regard to the troop 
numbers. I think if we work on convincing our allies to 
eliminate some of the operationally restrictive caveats that 
are on their forces, that's a force multiplier in itself. The 
penalty for not reducing caveats on troops that are committed 
is that you need more troops. You need more uncaveated troops. 
And there are some real moral issues there, in my view, 
whether--you know, how right is it for troops to be caveated 
that they can't go to the aid of allies, and yet, a nation that 
is attacked expects everybody else to come to their aid? And 
this is something the alliance is going to grapple with. But 
the quicker they get through that, like, as they did in Kosovo, 
where there were virtually no caveats--in 2003 we had so many 
caveats, we couldn't even move platoon from point A to point B. 
And now we have no caveats. And I hope that that will happen in 
Afghanistan, because the commanders will then really have the 
operational flexibility needed to do their job.
    The Chairman. Thank you very much.
    Senator Webb. Appreciate you being here.
    The Chairman. General, we have you at a quarter of. I'm 
going to ask you a parting question. You told me, when I spoke 
with you early on, a year and a half ago, maybe longer, that 
you were having trouble, when it became a NATO command, 
getting--you requested a squadron of 18 attack helicopters, 
three C-130s, and how difficult it was to--at the outset, to 
get that. Now, the President's committed additional combat 
brigade in the effort of Afghanistan. Does that include the 
necessary wherewithal, in terms of--do you know? Does that 
include helicopters, C-130 planes, logistics? Is that----
    General Jones. Yes, sir.
    The Chairman [continuing]. Part of the package?
    General Jones. There was, when we talked, just before the 
NATO expansion into the south, and we were having a difficult 
time raising two or three helicopters and some----
    The Chairman. Right.
    General Jones [continuing]. Transports and everything else. 
NATO did, in fact, provide a significant capability package, 
including the 8- or 9,000 troops that are now working in the 
south, and that included some mobility packages and things like 
that. There still remains maybe 5 percent of the overall plan 
that needs to be resourced, in terms of manpower and mobility, 
but, given where we were when you and I talked, and where we 
are today, we're in a much better situation.
    The Chairman. Very well. Thank you very much, General. It's 
a quarter of. Actually, it's 14 of. We went over. So, thank you 
very, very much----
    General Jones. Thank you, sir.
    The Chairman [continuing]. For being here, and I hope we 
can call on you again.
    General Jones. Anytime, sir. Thank you very much.
    The Chairman. But, Mr. Ambassador, you're not free. We're 
going to pick your brain, if we can, for a little bit, if you 
don't mind. Thank you very much.
    Mr. Ambassador, you talked about--and we'll go to 7 
minutes--or 5 minutes--let's make it 5 minutes--sins of 
omission and sins of commission. And you indicated that the--
there are Pakistani incentives not to cooperate. Could you tell 
us what you think those incentives to not cooperate are?
    Ambassador Dobbins. I think there are two sets of 
incentives that lead Pakistan to possibly support insurgency in 
Afghanistan, and, at a minimum, to be tepid about their efforts 
to suppress it. One is the sort of geopolitical desire not to 
face a--adversaries on two flanks. And to the extent that they 
perceive that the Government in Kabul has a close relationship 
with New Delhi, allows New Delhi to open consulates all along 
the border, where, allegedly, Indian intelligence agents are 
stationed, and where, again, allegedly--and these are Pakistani 
allegations--Indian intelligence agencies are, in turn, 
supporting insurgency in Baluchistan, this feeds a certain 
sense of paranoia. And Pakistan would obviously prefer to have 
a government allied with it and supportive of it, as it had 
with the Taliban, and, in effect, to give it what it--what is 
called--what they call ``strategic depth,'' faced, as they are, 
with this huge adversary on their other flank.
    The second is the desire to externalize Pashtun 
aspirations. As I said, most Pashtuns live in Pakistan. They've 
always lived in Pakistan. About, I think, three-fifths of the 
Pashtuns in the world live in Pakistan; and two-fifths, in 
Afghanistan. And the Pashtuns have always had aspirations for 
autonomy, or even independence, a Pashtunistan. And if the 
Pashtuns are going to run anything, Pakistan would prefer they 
run Afghanistan rather than try to run Pakistan, or try to 
carve our a autonomous area within Pakistan, or otherwise exert 
their influence in Pakistan. So, a simple desire to externalize 
these aspirations is a second--is a second motive.
    And there are historic limitations on Pakistani control 
over the border areas, which have historically been highly 
autonomous and self-governing.
    And this area is the least-developed area of Pakistan, 
which isn't highly developed, but which is certainly much more 
highly developed than Afghanistan. And, therefore, this is a 
population with substantial grievances, as well as aspirations.
    The Chairman. When I met with Musharraf--I can't remember 
how long ago it was now--and I raised the issue, not about the 
failure of Islamabad to deal with the northeast province and 
with the Pashtun, but I did raise the possibility of the 
economic difficulty faced by Pashtun in that province. And I 
raised the issue about aid, and it was--he was talking about 
aid for education. And I gave him indications--figures about 
the cost of--because we hear about the madrassas, and funding 
of the madrassas, particularly in this area and along the 
border, and so on, so forth. And I said I was prepared to come 
back to the Senate and make a major case for a significant 
economic aid package relating to education, and--but for 
elementary and secondary education. He said, ``No, no, we want 
it at the university level. That's where we need aid.'' And I 
got the distinct impression that anything--now, I'm putting 
words in his--he did not say what I'm about to say--but I got--
came away with the impression, with he and his ministers, that 
I--that the idea of enhancing the circumstances of the Pashtun 
in that area was not viewed by Islamabad as being in their 
interest. Now, you know, we think in terms of, you know, to use 
the phrase that our friend who writes for the New York Times, 
Mr. Friedman, uses, ``If you don't visit the bad neighborhood, 
it'll visit you.'' I get the impression that it's better for 
to--they think it's better that it stay bad neighborhood, for 
the reasons you've stated, rather than actually, even with our 
help, go in and try to improve the condition of the Pashtun in 
that--those provinces. What is your assessment? Am I misreading 
that?
    Ambassador Dobbins. No; I think you probably were reading 
it correctly. It has been a sensitive region for them, one that 
they have certain inhibitions about getting too deeply involved 
in, and probably have even greater inhibitions about our 
getting too--more deeply involved. It's possible, however, that 
their views and ours have evolved a bit. I believe that the 
administration has requested, in the assistance package for 
Pakistan, money--a significant amount of money for--
specifically for this region. So, I think that they recognize 
that the problem on the Pakistani side of the border needs to 
be addressed, as well.
    And, as I said, I think that it's not just a question of 
getting Pakistan and Afghanistan to agree on the border--that 
is, that the border is formally recognized--but to agree on a 
border regime which takes into the fact--takes into account the 
fact that these people have historically traveled back and 
forth, have family and tribal relations on both sides of the 
border, and promotes development in--on both sides of the 
border.
    So, I think thinking may have evolved somewhat, and it's 
possible even that the Pakistani thinking has evolved somewhat.
    The Chairman. Speaking of both sides of the border, one of 
the most interesting things I did in my stay in Pakistan is, 
with an American two-star, getting in an elevator--an elevator, 
Freudian slip--in a helicopter and fly that entire border in 
the winter. And you could see thousands of smuggling paths 
through the woods that were there. I mean, it was--I mean, 
literally, I guess it would be a thousand. I mean, just--and 
the point was made--this is 5 years ago--I mean, and the point 
was made that, you know, when the spring comes and the foliage 
is on the trees, it's virtually impossible to deal with that. 
But I think General Jones is right, we'll see what happens 
here.
    I--my time is up--I yield to my friend from Indiana.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Ambassador Dobbins, several of the ideas you have are 
certainly ``thinking outside the box,'' to use that phrase, but 
fascinating. For instance, the support of the Afghan clergy so 
that there is some idea of local government. As you point out, 
in many villages or what have you, there isn't, aside from 
this. How can you go about supporting the clergy? Is this--are 
these persons all of one faith, or are there divergences there, 
or--just an administrative situation? How would you do that?
    Ambassador Dobbins. Well, most of Afghanistan is Sunni. 
There is a Shia minority. In the southern region we're talking 
about, I think it's exclusively Sunni. Some of the--some of the 
mosques are privately supported, others have traditionally 
depended on the government. The government's capacity to 
provide that support has largely dried up. And I think it's an 
area that's worth, you know, further study, and maybe asking 
for a plan in this regard.
    Clearly, sort of direct Western assistance, non-Muslim 
assistance to these facilities and individuals may not be the 
most productive way. The most productive way is probably budget 
support to the Afghan Government and--with flexibility and 
encouragement that they use that budget support to fully fund 
the Religious Affairs Ministry and allow the Religious Affairs 
Ministry, in turn, to fulfill its obligations and 
responsibilities with respect to village mosques and imams.
    Senator Lugar. Well, that's a very important organizational 
point. In other words, once again, aid to the government----
    Ambassador Dobbins. Right
    Senator Lugar [continuing]. Karzai and what have you, but 
with ideas for them that they might find that possible to do.
    Ambassador Dobbins. Right.
    Senator Lugar. In other words, as a part of our general 
doctrine or idea of local government, but, through them, as 
opposed to our attempting to work with local----
    Ambassador Dobbins. Oh, absolutely.
    Senator Lugar [continuing]. Mosques and what have you.
    Now, second, you've just mentioned the problem of lack of 
development of this area in Pakistan which is the most in 
controversy today. It is difficult for the Pakistani Government 
to work with, historically, but productive of much of the 
trouble. Is there any conceivable way in which the 
international group, the 64 nations or what have you, could 
include, in addition to resurgence and reconstruction of 
Afghanistan, include that portion of Pakistan in question as 
well? In other words, to see, as you have analyzed today, the 
problem basically in Afghanistan is largely influenced from 
Pakistan, as you commenced your testimony. Now--this is a 
special part of Pakistan, as a matter of fact, which the 
Pakistani Government has difficulty with--obviously, due to 
questions of sovereignty--as well as the problems that you 
mentioned of rivalry with New Delhi, as a friendly government 
to Afghanistan and so forth. But I'm just, once again, thinking 
outside the box, our objective is Afghanistan, but, in fact, a 
good part of the problem is at least an area of Pakistan that 
includes Pashtuns in Pakistan, as well as in Afghanistan. Is 
there any conceivable way that we could recommend to our 
Government that you extend the territory?
    Ambassador Dobbins. Well, first of all, I do agree with 
General Jones that the lack of a coordinated and, sort of, 
hierarchical structure for deciding on--for prioritizing 
international assistance to Pakistan, and then overseeing its 
implementation, is an important lacunae in our capabilities 
there. And I think something analogous to the kinds of 
structures we've set in up Bosnia or in Kosovo could be 
helpful. The situation's different, and it would have to be 
structured to take account of those differences. But the fact 
is that we have achieved pretty much unity of command on the 
military side by using the NATO structure, and we don't have 
anything comparable on the civil implementation side. And the 
result is a very highly unstructured and overlapping set of 
national donor programs. So, I do think creating a contact 
group type structure, and assigning an individual to represent 
all members of that group, and oversee the international 
community's activities in that regard, would be useful.
    Now, whether that specific group could extend its 
responsibilities into Pakistan, I'm a little skeptical. I think 
that would probably make it more difficult for them to operate 
within Pakistan. I think you'd probably need a parallel effort 
directed to the Pakistani side of the border, but an effort 
that would be based in Islamabad, rather than in--rather than 
in Kabul.
    I do think, however, that it's--that we should be trying to 
raise the profile of the Pakistan issue in various 
international forums. I mean, we're in this anomalous situation 
now, where NATO troops are facing an adversary that's coming 
across a border, and it's like, you know, we've--for 40 years, 
we manned the Folda Gap waiting for the Soviets to come across 
the border. It would be like NATO not talking about the Soviet 
Union for 40 years, just manning the gap, but not talking about 
where the threat was coming from. And so--and that's, in 
effect, what we're doing now. We don't--I don't sense that 
we've put Pakistan on the NATO agenda. I don't see any 
communiques that talk about Pakistan. The General has indicated 
we are developing a military-to-military relationship with 
Pakistan, and I think that's good. But I think we need to put 
this on the agenda, and we'll only do that if the 
administration is prepared to talk somewhat more candidly about 
the problem than they traditionally have been. I remember 
urging one of our senior officials to put this on the North 
Atlantic Council's agenda, and the answer was, ``Oh, no, the 
information is too sensitive.'' Well, you know, I mean, we 
traded intelligence appraisals of what was going on in the 
Soviet Union for 40 years. And they were in a position to 
obliterate us. So, it's hard to believe that the information is 
so sensitive that it can't be shared with key allies, and that 
sharing it wouldn't create a greater overall sense of what the 
dimensions of the problem were, and, ideally, would result in 
larger resources and political influence flowing toward the 
kind of ameliorative steps that I've already suggested would be 
desirable.
    Senator Lugar. This is a quick followup. Isn't it possible, 
though, that, given the enthusiasm of the Congress, the 
administration, and what have you, for Afghanistan 
reconstruction success, that, at the same time that we're 
admonishing Mr. Musharraf and others to do better, we would say 
to him, ``We would like, as a matter of fact, to extend our 
roadbuilding or our turning on the lights or whatever, over 
across the border. We'd like to help you out, because we think 
it's in your best interest and ours.'' In other words, this is 
a very different type of incentive----
    Ambassador Dobbins. Right.
    Senator Lugar [continuing]. Than the fact that he's simply 
not fulfilling whatever obligations we think he has.
    Ambassador Dobbins. Oh, I agree with that. And I--and, to 
be fair, I think the administration has suggested something 
like that in the budget to you. But that's not to say it 
couldn't be highlighted and expanded. But I agree with that.
    Senator Lugar. Thank you.
    The Chairman. Senator.
    Senator Casey. Thank you, Mr. Chairman.
    And, Mr. Ambassador, thank you for your time and your great 
service to the country. I'm struck by where you've been over 
all the years, and no easy places to deal with, hotbeds, all of 
them.
    I've got about two or three. I want to start to pick up 
where I left off with an earlier witness, and, also, we've had 
a good discussion about it already with regard to Pakistan. I, 
like others on this committee, have had contact with the 
Pakistani Ambassador, Mr. Durrani, and he made a passionate 
case in my office a couple of days ago that what we're reading 
in the newspaper, what the administration and others have 
asserted with regard to the way Pakistan has or--either has 
done or has not done to have a more constructive impact and a 
positive impact on the fight against al-Qaeda and the Taliban, 
that that's--that we're not getting all the information we 
need, and the press accounts are inaccurate, and their side of 
the story has to be told.
    I asked him point blank to take the most critical news 
accounts of the way the Pakistanis have dealt with this issue, 
and rebut them, and give us--give me and give others the 
benefit of a written rebuttal on the most substantial charges.
    What's your assessment of that? Just point blank, in terms 
of the Pakistani Government's assertion that they're getting a 
bad rap, so to speak, when it comes to the general battle 
against terrorists, but, in particular, within Afghanistan?
    Ambassador Dobbins. I believe that, as regards al-Qaeda, 
that's probably right. I mean, I think--I think that Pakistan 
has been cooperative in trying to locate, roll up, arrest al-
Qaeda operatives. They see this as a threat to them, as well as 
to us. Musharraf, indeed, has been--suffered from an 
assassination attempt. So, I think, insofar as we're talking 
about al-Qaeda, this is true.
    As regard the Taliban, it is--it was, until recently, not 
true, and I think it's still probably less true, although there 
have been some signs that they've stepped up their activities 
to interdict and interfere with the Taliban's activities in 
Pakistan. I mean, the--they've made--they, in themselves, make 
a distinction between foreigners, whom they're prepared to 
collaborate against, and people who aren't foreigners. Well, 
the fact is that many of the Taliban operatives are not 
foreigners, they're Pakistanis. Some of them are long-term 
Afghan refugees in Pakistan who have been there 10 or 20 years. 
Others have always been Pakistani. And that obviously 
represents a different political inhibition, when you're 
talking about your own citizens, rather than illegal aliens, in 
effect.
    And I've cited the reasons why they, at a minimum, may 
feel--may lack adequate incentives to be more aggressive in 
this regard.
    I think that there have been repeated assertions--and, 
indeed, I think, United States, NATO, Afghan, and United 
Nations officials all have said informally and when they're off 
the record--that the Pakistani intelligence service has had a 
relationship with the Taliban, and has provided support and 
assistance to the Taliban. And I have no reason to believe that 
that is not the case. Now, Musharraf goes--says, ``Well, maybe 
retired members of the''--of his intelligence service are doing 
that, but not active-duty ones.
    On the other hand, I don't believe that the Ambassador you 
were talking to was necessarily lying to you or being 
intentionally disingenuous. Pakistan's a big, complicated 
country, with a complex government. And I think there are many 
Pakistani officials who are entirely sincere in their desire to 
cooperate with the United States, cooperate with the 
international community, move Pakistan into the mainstream of 
the international community, and see these extremist threats as 
primarily threats to their own society.
    Senator Casey. I was struck by something you had in your 
written testimony, I'll read from portions of it. On page 6, 
where--you make the assertion about Afghanistan, that it's, 
``simply too poor to be able to provide security and effective 
governance to its large and dispersed population. So, unless 
the Pakistani Government can be persuaded to''--and then you 
list things that they must do. The United--then you conclude 
with, ``The United States and its allies are going to be forced 
to patrol Afghanistan's southeast frontier indefinitely.'' So, 
obviously you're making the case, as I think everyone agrees, 
that Pakistan has much to do to prove itself, and to make sure 
that they're a constructive force in Afghanistan.
    And I was also struck by the list of priorities you see 
with regard to Afghanistan. The first one being an age-old 
challenge. You say that the United States should intensify 
quiet efforts to encourage both India and Pakistan to resolve 
their differences over Kashmir. What do you think the 
likelihood of that, if--that's the first priority among 
several--what do you think the likelihood of that is in what is 
now 2 years left in this administration? And how do you think 
that's best accomplished? Is that diplomacy that's at the level 
of Secretary of State, or is it diplomacy that operates on 
several tracks? What's the best way to get there?
    Ambassador Dobbins. I think that's actually one of the more 
hopeful areas. I think there has been progress between the 
Pakistanis and the Indians. The Indians react very strongly. 
The Pakistanis would love to have us mediate this, but the 
Indians react very strongly and rebuff us in that regard. And, 
therefore, that's why I said that I think it has to be done 
quietly and informally.
    And, I mean, we're building up a lot of credit with India. 
We're--we've intensified our relationship, we've offered them a 
nuclear agreement, which is a real breakthrough in our 
relationship, we're treating them as an emerging world power. 
And I think we need to, at the same time, make clear that we 
regard settlement of this issue as one of their 
responsibilities, and that we're not going to publicly try to 
engage ourselves in the process, but that it is an important 
aspect of our attitude toward them over the longer term.
    So, I--and, to be fair, again, I think that this is an area 
where the administration has been making efforts. And I think 
probably American efforts going back to the efforts that Colin 
Powell made to avoid a nuclear confrontation between the two 
countries, back in 2002, have yielded some results.
    Senator Casey. I know I'm over, but I have more, but I'll 
wait.
    The Chairman. No; go ahead. If you have a followup 
question, go ahead.
    Senator Casey. Let me do one more.
    Something you've written about, the topic being ``nation-
building,'' and you contrast--or compare efforts undertaken by 
the previous administration, the Clinton administration, on 
what you call--I think you call, ``low-profile, small-footprint 
approach'' to nation-building. And, among other things, you 
talk about successful nation-building being measured by the 
level of effort made in terms of troops, time, and money.
    Ambassador Dobbins. Right.
    Senator Casey. What's your sense of that when it comes to--
obviously, the past is prologue, and it gives us a lot of ideas 
on this, but in future efforts, in terms of nation-building, 
what do you think we must do, or what hasn't been done recently 
that--do you think it's those three areas, in troops and time 
and resources, or do you think there's something else that we 
haven't done?
    Ambassador Dobbins. Well, I think the way we organize 
ourselves to do this is important. Obviously, just throwing 
resources at a problem doesn't solve it. So, it's the competent 
employment of those resources. And--but I think we need to--I 
think we need to recognize that there's an important 
relationship between the scale of one's commitment and the 
scope of one's ambitions. When nation-building missions fail, 
they usually fail because that relationship hasn't been 
adequately recognized. That is, we went in with inadequate 
forces and very large-scale ambitions. Afghanistan should have 
been a mission that could have been accomplished with a 
relatively modest input, as compared to some other ones, 
because we had a very favorable international climate, we had 
support of all of the neighboring states, and we had support of 
most elements of the Afghan population, and we were able to put 
in place a moderate, responsible, and broadly based government 
very quickly. And, on that basis, we should have been able to 
make progress with a comparatively modest commitment. 
Unfortunately, we didn't go in with a comparatively modest 
commitment, we went in with a scandalously inadequate 
commitment. I mean, in the aftermath of the war in Kosovo, the 
average Kosovar got 25 times more assistance the first couple 
of years than the average Afghanistan--Afghan, who'd had 20 
years of civil war. And the average Kosovar got 50 times more 
security in the form of international troops than the average 
Afghan got. So, it was--Afghanistan was the least resourced of 
any America nation-building operation in the last 60 years 
during that first 2- or 3-year period.
    Now, again, the administration's largely recognized that, 
and, beginning in 2004, began to provide much more adequate 
resourcing. But, again, the experience of these missions over 
the last 60 years suggests that beginning big and building down 
is a much--a wiser approach than beginning with minimal forces 
and then having to increase them as you're challenged.
    That said, there's--one approach is to set high ambitions 
and then commit large-scale resources. The alternative is to 
commit limited resources, but also to scale back one's 
ambitions to what is likely to be achieved within those limited 
resources. And sometimes that is a viable option. So, not every 
operation requires hundreds of thousands of troops and billions 
of billions of dollars.
    We didn't go into Afghanistan saying we were going to make 
it a model for Central Asia, and that, once we democratized 
Afghanistan, we were going to change the form of government of 
every one of its neighbors. We went in with a more limited set 
of objectives, which were essentially to make sure it didn't 
become a launch point for global terrorism. We were, therefore, 
able to get bases in Uzbekistan and Tajikistan--Russian, 
Iranian, Pakistani support. And, with that, we could have made 
more progress than we did. In Iraq, where we went in with that 
much, much higher set of objectives, the resource requirements 
would have been, and were, commensurately much higher.
    Senator Casey. Thank you, sir.
    The Chairman. Thank you very much.
    Senator Lugar, do you have any----
    Mr. Ambassador, thank you very much. Your insight is always 
very helpful to this committee, and to me, in particular, and I 
appreciate it. And this will--this is just the first of 
hearings we're going to have on this. We're going to follow 
this up through the spring, and I hope you'll be available to 
us.
    Ambassador Dobbins. Thank you. Always a pleasure.
    The Chairman. Thank you very much.
    We're adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Thank you, Mr. Chairman, for holding this important hearing on 
Afghanistan which remains without a doubt the principal front in the 
war on terror.
    Since the fall of the Taliban in 2001, the Government of 
Afghanistan has made considerable progress including in adopting a 
constitution; holding elections; and expanding women's rights and 
educational opportunities.
    But Afghanistan continues to face grave threats that directly 
impact U.S. national security. These include the resurgence of the 
Taliban and al-Qaeda, as noted last week by the Director of National 
Intelligence, Admiral McConnell; weak institutions of administration; 
security and justice; rampant poverty and unemployment; and the booming 
drug trade which General Jones has called the ``Achilles heel'' of 
Afghanistan.
    That al-Qaeda, in particular, is in a position to reconstitute 
itself in Pakistan's tribal areas shows just how misguided this 
administration's priorities have been in fighting this war on terror 
and how its policies have left our country less safe.
    After 9/11, we had al-Qaeda's leadership on the run and severely 
limited in its ability to plan attacks. Five years later, after having 
diverted troops and resources to Iraq, al-Qaeda has reestablished 
itself; we're in for a bloody Taliban spring offensive; and Afghanistan 
is producing 90 percent of the world's heroin.
    To combat these threats, the United States and the international 
community must urgently and rapidly increase political, economic, and 
military support to Afghanistan to ensure its long-term stability and 
prosperity, and to deny al-Qaeda sanctuary in Afghanistan.
    We also need to get the Government of Pakistan to strengthen its 
commitment to fighting the Taliban, in particular, and establish 
control over its territory. The Pakistani leadership has made some 
tough choices and is an important ally of the United States but it 
needs to do more.
    To convey this very message, I introduced a resolution yesterday 
which states that U.S. military assistance to Pakistan should be guided 
by progress that the Government of Pakistan makes in apprehending al-
Qaeda and Taliban elements and preventing them from operating in 
Pakistan.
    In the course of this hearing, I look forward to hearing the 
testimony of our distinguished witnesses regarding recent developments 
in Afghanistan and the details of the White House's new strategy toward 
Afghanistan.
    The stakes in Afghanistan for our country, for the international 
community, and for NATO are significant. I will continue to closely 
monitor the situation there to ensure that we are doing everything we 
can to win a war that at this point is ours to lose.

                                  <all>

</pre></body></html>
